<html>
<title> - 2010 CENSUS: PROGRESS ON THE DEVELOPMENT OF THE FIELD DATA COLLECTION AUTOMATION PROGRAM AND THE DECENNIAL RESPONSE INTEGRATION SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 2010 CENSUS: PROGRESS ON THE DEVELOPMENT OF THE FIELD DATA COLLECTION 
    AUTOMATION PROGRAM AND THE DECENNIAL RESPONSE INTEGRATION SYSTEM

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                and the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2008

                               __________

                           Serial No. 110-109

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
46-196 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 9, 2008....................................     1
Statement of:
    Murdock, Steven H., Director, U.S. Census Bureau; accompanied 
      by Preston Jay Waite, Deputy Director, U.S. Census Bureau; 
      Mathew Scire, Director, Strategic Issues, Government 
      Accountability Office; David Powner, Director, Information 
      Technology Management Issues, Government Accountability 
      Office; Jason F. Providakes, senior vice president and 
      general manager, Center for Enterprise Modernization, MITRE 
      Corp.; and Cheryl L. Janey, president, civil programs, 
      Harris Corp.; accompanied by Mike Murray, vice president of 
      programs and lead executive, Harris Corp...................    35
        Janey, Cheryl L..........................................    93
        Murdock, Steven H........................................    35
        Powner, David............................................    64
        Providakes, Jason F......................................    80
        Scire, Mathew............................................    47
        Waite, Preston Jay.......................................    41
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    21
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    11
    Janey, Cheryl L., president, civil programs, Harris Corp., 
      prepared statement of......................................    95
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    32
    Murdock, Steven H., Director, U.S. Census Bureau, prepared 
      statement of...............................................    37
    Powner, David, Director, Information Technology Management 
      Issues, Government Accountability Office, prepared 
      statement of...............................................    65
    Providakes, Jason F., senior vice president and general 
      manager, Center for Enterprise Modernization, MITRE Corp., 
      prepared statement of......................................    82
    Scire, Mathew, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    49
    Waite, Preston Jay, Deputy Director, U.S. Census Bureau, 
      prepared statement of......................................    43
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     4


 2010 CENSUS: PROGRESS ON THE DEVELOPMENT OF THE FIELD DATA COLLECTION 
    AUTOMATION PROGRAM AND THE DECENNIAL RESPONSE INTEGRATION SYSTEM

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

        House of Representatives, Subcommittee on 
            Information Policy, Census, and National 
            Archives, Committee on Oversight and Government 
            Reform joint with Committee on Oversight and 
            Government Reform,
                                                    Washington, DC.
    The subcommittee and committee met, pursuant to notice, at 
2 p.m., in room 2154, Rayburn House Office Building, Hon. Henry 
A. Waxman (chairman of the full committee) presiding.
    Present: Representatives Waxman, Maloney, Clay, McCollum, 
Hodes, Sarbanes, Davis of Virginia, Platts, Duncan, Turner, 
Issa, Sali, and Jordan.
    Staff present from the Information Policy, Census, and 
National Archives Subcommittee: Darryl Piggee, subcommittee 
staff director/counsel; and Jean Gosa, clerk.
    Staff present from the full committee: Phil Schiliro, chief 
of staff; Phil Barnett, staff director and chief counsel; Karen 
Lightfoot, communications director and senior policy advisor; 
Alison Cassady, counsel; Anna Laitin and Mark Stephenson, 
professional staff members; Earley Green, chief clerk; Teresa 
Coufal, deputy clerk; Caren Auchman and Ella Hoffman, press 
assistants; Leneal Scott, information systems manager; William 
Ragland and Miriam Edelman, staff assistants; David Rapallo, 
chief investigative counsel; Michelle Mitchell, legislative 
assistant, Office of Wm. Lacy Clay; Larry Halloran, minority 
staff director; Keith Ausbrook, minority general counsel; Steve 
Castor and Charles Phillips, minority counsels; John Caderes, 
minority senior investigator and policy advisor; Patrick Lyden, 
minority parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; and Ali Ahmad, 
Chris Espinoza, and Todd Greenwood, minority professional staff 
members.
    Chairman Waxman. The meeting of the joint hearing by the 
full committee and the Subcommittee on Information Policy, 
Census, and National Archives will come to order.
    Today we will examine major problems with a contract 
critical to the success of the 2010 census, the field data 
collection automation contract. These problems have recently 
led to a major redesign of the census very late in the process 
and will cost the taxpayer, by the administration's own 
estimate, up to $3 billion.
    Let me be blunt: this is a colossal failure. The 
mismanagement of the contract has jeopardized the success of 
the 2010 census and will cost taxpayers billions of dollars.
    This hearing and our future oversight activities need to 
have two objectives: first, we must do all we can to ensure 
that the census is as accurate as possible. The Federal 
Government depends on the census for everything from the 
accurate apportionment of the House of Representatives to the 
fair distribution of millions of dollars in Federal funds. 
Inaccuracies in the census deprive millions of Americans of a 
voice in our Government.
    At the same time, we owe it to the taxpayer to find out 
what went wrong and who was responsible. The FDCA contract was 
originally intended to produce approximately 500,000 hand-held 
computers with a total contract cost of $600 million. Now the 
Commerce Department is saying that the taxpayer must pay $1.3 
billion, more than twice as much, to the contractor, although 
it will now only produce 151,000 hand-held computers.
    In addition, the Commerce Department announced that the 
census will revert to a paper-based canvas. These changes will 
increase the cost of the census by billions of dollars.
    The warning signs that this contract was in trouble were 
there for the Bureau and for the Commerce Department to see. My 
staff has prepared a fact sheet that summarizes the long series 
of alarms that GAO and the Inspector General sounded about this 
program, and I ask that this fact sheet be made a part of the 
record and will be available.
    Without objection, that will be the order.
    In June 2005 GAO said that the Bureau was not adequately 
managing major it investments. In March 2006, GAO advised that 
the Census Bureau had ``not yet approved a baseline set of 
operational requirements'' for the contract.
    In June 2006 GAO stated that ``the uncertainty surrounding 
the devices' reliability constitutes a risk to the cost-
effective implementation of the 2010 Census.''
    In June 2007 the MITRE Corp. told the Bureau that the 
census is at significant risk of cost and schedule overruns, 
omission of essential requirements unless major changes are 
made quickly.
    In July GAO warned that the project was likely to 
experience cost overruns, primarily due to the increase in 
system requirements.
    The warning signs were clear, yet the Bureau and the 
Department apparently did not begin a serious review of the 
program requirements until late 2007 to early 2008. The 
problems were essentially swept under the rug until the 
committee began to ask questions and insist on briefings from 
the Bureau on the extent of the problems and possible 
solutions.
    I am glad that we have representatives from the Census 
Bureau, GAO, Harris Corp., and the MITRE Corp. with us today to 
address these questions, but I am disappointed that two key 
figures refused to appear today. Dr. Charles Lewis Kincannon 
was the Census Director when many of the key decisions were 
made, and we invited him to testify, but, unfortunately, he 
declined. I am also disappointed that Commerce Secretary 
Guitierrez declined our opportunity to testify. I have 
questions about the Department's role in overseeing the 
contract. The committee has requested documents from Secretary 
Guitierrez, and we will continue our oversight efforts in this 
area.
    When taxpayers' dollars are squandered, we have an 
obligation to find out what happened. We also have an 
obligation to conduct oversight to identify what steps are 
necessary to put the 2010 census back on track. Those are our 
goals for today.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T6196.067

[GRAPHIC] [TIFF OMITTED] T6196.068

[GRAPHIC] [TIFF OMITTED] T6196.069

[GRAPHIC] [TIFF OMITTED] T6196.070

[GRAPHIC] [TIFF OMITTED] T6196.071

    Chairman Waxman. I want to recognize the ranking member of 
the full committee, Mr. Davis, for an opening statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Chairman Waxman and Subcommittee Chairman Clay, we 
appreciate your calling this hearing on problems with the 2010 
census. Some of us on this side have been warning about red 
lights on the census dashboard for some time, but it gives us 
no satisfaction to know we were right about the floundering 
automation project and other Government lapses at the Census 
Bureau.
    The goal now has to be to refocus the program on essential 
preparatory activities and be sure the Constitutionally 
mandated numeration will be conducted successfully and 
efficiently.
    I am sure some of our panel today would rather be getting a 
root canal than appearing here today, but this hearing is long 
overdue. After months of denials and delayed reckoning, it is 
time to acknowledge that budget shortfalls and management 
deficits at the Commerce Department have put the census in a 
perilous position at a critical time.
    At the epicenter of the threatened implosion is the field 
data collection system [FDCA]. Hand-held computers developed 
under the program were to be used for the first time to capture 
responses from people who do not complete the mail-in forms, 
but last week the Commerce Department conceded the devices were 
not ready and trying to finish and test them in the time 
remaining posed too great a risk of an inaccurate or incomplete 
count.
    Today we hope to learn more about the events leading up to 
last week's announcement, but this much we already know: this 
did not have to happen. Americans interact with hand-held 
devices every day. Major international corporations use 
portable electronic devices all the time to track inventory and 
information on a global basis across cultural boundaries and 
logistical barriers. What the Bureau tried to do in creating a 
hand-held device to collect and track address data and census 
responses from numerators in the field wasn't impossible, but 
for reasons all too predictable it proved unattainable for the 
Census Bureau.
    Over more than 30 years of work and acquisition policy in 
both the public and private sectors, I have seen this type of 
failure too many times. It doesn't happen because the 
technology doesn't exist; it happens most often because those 
managing the project are in over their heads, blithely unaware 
of the avoidable potholes and pitfalls littering the path of 
any major IT development. It happens because Agency officials 
are not trained to communicate clearly and succinctly with 
contractors hired to provide the technology solution required. 
And it happens when managers of our contracts between the 
Agency and the contractor shuffle along day after day, week 
after week, on auto pilot without any objective effort to track 
or measure real progress. Meanwhile, millions of tax dollars 
are being spent or mis-spent.
    In this case it happened in large part because the Census 
Bureau failed to tame an out-of-control requirements process 
that churned internally until January of this year.
    I have a chart up here. Despite warnings from us, from 
outside experts, and from their own contractor, Census 
officials persisted in the belief that they could stuff an 
endless list of tasks into the small box that they had already 
bought. For example, bidders were told to include only one 
external interface on the hand-held device, but in the end the 
Census Bureau wanted 12 interface systems installed, each 
requiring substantial additional software development, 
integration, and documentation.
    Let's view the second chart. This is a classic case of 
requirements creep, treatable if diagnosed early, but 
potentially fatal if left to fester. There is no scandal here, 
no nefarious plot to outsource essential Government functions. 
Any attempt in this case to vilify contractors just shoots the 
messenger and ignores the essential message.
    This was a failure of Government management, not contract 
performance. The Census Bureau appears to have under-estimated 
the cost of even the one aspect of the automation project that 
will survive, address verification. It now appears as much as 
$3 billion more might be needed between now and 2010 to replace 
the hand-helds with a paper system and fully fund those other 
aspects of the census for which the Department drastically 
under-stated costs.
    Every House Member, every Federal agency, every city, 
county, and State has a vested interest in making sure the 2010 
count is as complete and accurate as possible. It is going to 
take a massive amount of effort to have a successful census. In 
past time, we did our part to ensure its Constitutionally 
mandated initiative was conducted properly and on time.
    I think it is time we think about empaneling an expert 
monitoring board like we did a decade ago to watch over the 
Census Bureau and its work every day. The current level of 
oversight certainly doesn't seem to be enough, and time is 
running short to get it right.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.072
    
    [GRAPHIC] [TIFF OMITTED] T6196.073
    
    [GRAPHIC] [TIFF OMITTED] T6196.074
    
    [GRAPHIC] [TIFF OMITTED] T6196.075
    
    [GRAPHIC] [TIFF OMITTED] T6196.076
    
    [GRAPHIC] [TIFF OMITTED] T6196.077
    
    [GRAPHIC] [TIFF OMITTED] T6196.078
    
    [GRAPHIC] [TIFF OMITTED] T6196.079
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    I want to recognize Chairman Clay.
    Mr. Clay. Thank you, Mr. Chairman. Thank you for holding 
this joint committee hearing today.
    The decennial census is the largest peace-time mobilization 
in this country. We are here today to examine what happened, 
why it happened, and what are the options for correcting the 
problem, both on the part of the Bureau and the contractor, so 
that we can have a complete and accurate census in 2010.
    First let's examine how we got here. In 2001, in response 
to a congressional mandate, the Census Bureau set out to re-
engineer the 2010 decennial census. Doing so they claimed would 
reduce operational risk and contain cost. Bureau officials 
determined that this could be accomplished with the use of 
innovative technology, specifically hand-held computing 
devices.
    From 2000 to 2004, the Bureau attempted to design and 
produce the device internally. When they realized they did not 
have the resources to complete the project, they decided to 
contract it out.
    In May 2006 the Harris Corp. was awarded the $600 million, 
5-year contract for FDCA. Before the contract was awarded, the 
Commerce Department Inspector General in a 2005 report 
expressed concern about the baseline requirements. In March 
2006 GAO expressed similar concern.
    Despite all of the warnings about FDCA from GAO and the 
Department of Commerce Inspector General, there was little 
congressional oversight of the 2010 decennial census between 
2001 and 2006.
    Since January 2007 the Information Policy, Census, and 
National Archives Subcommittee held seven hearings on the 2010 
census. This subcommittee began looking into the information 
technology problems with the 2010 census in February 2007. In 
April 2007 the subcommittee held a hearing on the progress of 
the 2010 census. At that hearing we called GAO and the Harris 
Corp. to testify about the census IT contract.
    At that time, GAO expressed concern about the incomplete 
requirements for FDCA; however, Harris testified that 
everything was on time and on budget.
    Between April 2007 and November 2007, subcommittee staff 
met with GAO and the Census Bureau numerous times to discuss 
the progression of the IT program for the 2010 decennial 
census, specifically how the Bureau and Harris were resolving 
problems identified by GAO.
    On December 11, 2007, this subcommittee held a hearing 
titled, A Review of the Census Bureau's Risk Management 
Activities for IT Acquisition. The Harris Corp. was present to 
address concerns raised by the GAO report titled, Census Bureau 
Needs to Improve its Risk Management of Decennial Census. 
Harris testified before the committee that their projects were 
on schedule and on budget and problems were manageable. This 
was in December 2007.
    We have since learned that this is not the case with FDCA. 
The requirements for FDCA are still not complete 18 months 
after the contract was awarded, and last week the Secretary of 
Commerce informed Congress that the Bureau would not be using 
the hand-held computing devices for non-response followup as 
originally planned, but for address canvassing only.
    Despite what appeared to be a smaller scope for the 
contract, the Bureau will pay between $900 million and $1.3 
billion for a contract that awarded for $600 million.
    We are here today to find out if the Harris Corp. and the 
Bureau's assessments of the FDCA project were accurate in 
December and how the cost could possibly double.
    I look forward to hearing the witnesses' testimony.
    I yield back, Mr. Chairman.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.001
    
    [GRAPHIC] [TIFF OMITTED] T6196.002
    
    [GRAPHIC] [TIFF OMITTED] T6196.003
    
    [GRAPHIC] [TIFF OMITTED] T6196.004
    
    [GRAPHIC] [TIFF OMITTED] T6196.005
    
    [GRAPHIC] [TIFF OMITTED] T6196.006
    
    [GRAPHIC] [TIFF OMITTED] T6196.007
    
    [GRAPHIC] [TIFF OMITTED] T6196.008
    
    Chairman Waxman. Thank you, Mr. Clay.
    I want to recognize Ranking Member Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    We are just all so incredibly disappointed that we are here 
having this hearing today. I obviously want to disagree with 
the chairman of our subcommittee in the activities of the 
subcommittee in the 2-years prior to his chairmanship.
    When I chaired the subcommittee we had numerous hearings on 
this subject matter. In fact, we engaged GAO because of the 
lack of belief on the subcommittee's part that the Census 
Bureau was doing what was necessary. In fact, in our hearings 
and in the GAO report it expressly set out the problems that 
could befall us if this was not managed appropriately.
    If you look at what we are hearing now, clearly this is an 
issue of just gross mismanagement. When we had our meeting with 
Secretary Guitierrez I asked him one question: was this task 
possible? Could it have been achieved?
    Unless that answer is no, then that means that someone is 
not doing their job and that the taxpayers have funded a 
project that has been completely mismanaged without delivering 
the product that was intended, which is exactly what this 
subcommittee feared when we engaged GAO and held hearings with 
the Census Bureau leadership and told them of our concern of 
what would happen if their plan failed.
    I am not willing to concede that it is merely the Census 
Bureau and that all the contractors did everything that they 
were supposed to do, because I cannot believe that a project of 
this magnitude, that the intellect that brought to bear wasn't 
fully informed intellect, meaning that everybody at the table 
had responsible to deliver it. This is, I believe, an 
accomplishable project that has failed as a result of 
mismanagement and it has placed at risk, which is exactly what 
we were concerned with when we had our hearings with GAO, the 
successful census.
    I appreciate the chairman for holding this hearing, and as 
we pursue this there is a lot to find out here. It is not just 
how do we preserve the census, which of course is of utmost 
importance. How do we ensure that it is done in a manner where 
we can all be confident, which is surely important. But when 
you have a committee that is continually told by the Census 
Bureau everything is on track when there are fears that are 
expressed by the committee and by GAO that are not addressed, 
and then the Census Bureau comes to us and tells us that the 
project is now failing, there is an issue of management and 
oversight that needs to occur that obviously did not occur 
here.
    Those are important issues for us to address today beyond 
just the issue of how do we get the census on track.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Turner.
    Without objection, all Members will be allowed to enter an 
opening statement in the record. I don't want to preclude 
anybody who wants to give an opening statement at this point, 
however, and I do want to particularly recognize Mrs. Maloney 
because she has been a long-time leader in the area of census.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I wanted to commend 
you on the chronology of warnings that really documents the 
mismanagement of the Census Bureau and be associated in a 
bipartisan way with the comments of Mr. Davis, Mr. Turner, and 
Mr. Clay, all of whom pointed out mismanagement personified in 
the Census Bureau.
    I really do not know what to say, Mr. Chairman, given the 
facts before us. I have called this a statistical Katrina, but 
Katrina was a natural disaster and a natural catastrophe made 
worse by the administration's incompetent response. This is a 
disaster, like so many others during the past 7 years, of the 
administration's own making, I would say.
    Dr. Murdock, there is no way to sugar coat it. I know you 
have only been here for a few months and the administration of 
which you are an appointee decided not to send the Secretary, 
Secretary Guitierrez, so you are now here representing the 
administration. You just got here. That's a little unfair 
position to put you in.
    Today I think that we will hear that there is more than 
enough blame to go around among Harris, Census, Commerce, OMB, 
and MIT research, but ultimately we know that it is this 
administration's fault, and nobody else's.
    This census, like the 1990 census of President Bush, 
Senior, willprobably again be a census that is less accurate 
than the one before it.
    Ultimately, there is plenty of negligence to go around, but 
someone has to be in charge, and this President likes to say he 
is the decider, but that is not leadership. He is the Chief 
Executive of the executive branch, and in the final analysis 
this President is responsible for this 11th hour challenge that 
we are facing with the census.
    There is no doubt that 2 years out, given the magnitude of 
problems, the 2010 census is shaping up to be less accurate, no 
matter who is in the Chair 2 years from now. It is regrettable, 
truly regrettable, that this is the case.
    The only question is not who is to blame. We know that. But 
rather, what, if anything, can be done to make it less worse.
    That is the question, Dr. Murdock.
    While the White House is looking around to find the money, 
and we need to find the money to fix this mess, there is going 
to be a cloud over moving forward to fix this for the next few 
weeks, and I understand from some colleagues of mine at the 
Census Bureau, that we are running out of money and they are 
now considering layoffs at the Department.
    Dr. Murdock, the first Census Director in 1790 was 
Secretary of State Thomas Jefferson, and it was Jefferson who 
said, ``The price of freedom is eternal vigilance.'' It was 
Jefferson and Madison together who crafted the novel American 
concept of a decennial census to empower the people and ensure 
all Americans are fairly represented in their Government.
    Given the amount of money you are now asking for, we can 
see that the cost of that fair representation and our 
Constitutional mandate is priceless.
    Frankly, Dr. Murdock, you are going to be back in Texas in 
less than a year and Secretary Guitierrez will probably be back 
in Michigan. Chairman Waxman and Clay and I are going to be 
sitting here with a mess unless you work right now to fix it.
    What I want to know and hear in this hearing is, after we 
give you all the money you are asking for, what objective, 
measurable benchmarks can you tell us today will be in place on 
May 1st, June 1st, July 1st so that you and this administration 
do not leave this big challenge for the next administration.
    I plan to ask you that, Dr. Murdock and Mr. Waite, and I 
also plan to ask the same question to GAO, Harris, MIT, all of 
you.
    We need to hear what are the objective goals that we need 
to put in place and that we need to get done, and when we give 
you this money, what will you show us that we can have 
confidence that this census is going to go forward in the 
appropriate way.
    If this chairman, Chairman Clay, has a hearing every month 
from now until you leave and we bring you back every month, how 
would we know that this plan of yours going forward will work?
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T6196.009

[GRAPHIC] [TIFF OMITTED] T6196.010

    Chairman Waxman. Thank you very much, Mrs. Maloney.
    Other Members? Yes, sir?
    Mr. Duncan. I don't have a full statement, but I do want to 
speak.
    First of all, I thank you for calling this hearing, because 
I think this is certainly something we should stay on top of, 
but I, speaking just for myself and as a very fiscally 
conservative Member, I think this is disgusting. I remember 
just a few years ago when with IRS we spent something like $10 
billion on a computer system that didn't work and just had to 
be scrapped, and now we come here and we hear that this 
program, which was budgeted for, I think, $11.5 billion, is not 
up to $14.5 billion, and we are going to have a cost overrun 
here of $2.5 or $3 billion, and who knows how much more it may 
add up.
    We are all supposed to just worship technology, and 
whenever a Government agency messes up it always says it is 
either under-funded or its technology is out of date. Well, 
this is just getting ridiculous. And nobody seems to get upset 
about it because it is not money coming out of their pockets.
    I thank you for holding this hearing, and I think we would 
have been better off if we had just done the census the old way 
and not even gone this far down this ridiculous path.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you. Any other Member wish to make 
an opening statement? You certainly can put something in the 
record.
    [No response.]
    Chairman Waxman. If not, I want to welcome our witnesses 
today.
    We have with us The Honorable Steven H. Murdock as the 
Director of the U.S. Census Bureau. Mr. Murdock is the former 
State demographer for Texas. He is accompanied by Mr. Preston 
Jay Waite, the Deputy Director.
    Mr. Mathew Scire is the Director of Strategic Issues at the 
GAO. Mr. Scire's responsibilities include directing work on the 
2010 census. He is accompanied by Mr. David Powner, Director of 
Information Technology Management Issues.
    Dr. Jason F. Providakes is the senior vice president and 
general manager of the Center for Enterprise Modernization at 
MITRE Corp. Dr. Providakes has wide experience in advising the 
Federal Government on information technology programs.
    And Ms. Cheryl L. Janey is the president of civil programs 
at the Harris Corp., where she oversees the development of 
advanced communications and information systems.
    I want to welcome you all to our hearing. I hope I 
pronounced all of your names correctly. This is a very 
challenging panel in terms of your names, among other reasons.
    It is the practice of our committee that all witnesses that 
testify do so under oath, so if you would please rise and raise 
your right hand.
    [Witnesses sworn.]
    Chairman Waxman. The record will reflect that each of the 
witnesses answered in the affirmative.
    We have your prepared statements. They will be in the 
record in full. We would like to ask, however, if you could to 
limit the oral presentation to around 5 minutes. We are going 
to have on that little contraption on the desk. It will be 
green, the last minute it will be yellow, and then when time is 
up it will be red. So when you see the red, I hope you will sum 
up.
    Mr. Murdock, I want to recognize you first.

STATEMENTS OF STEVEN H. MURDOCK, DIRECTOR, U.S. CENSUS BUREAU; 
ACCOMPANIED BY PRESTON JAY WAITE, DEPUTY DIRECTOR, U.S. CENSUS 
 BUREAU; MATHEW SCIRE, DIRECTOR, STRATEGIC ISSUES, GOVERNMENT 
  ACCOUNTABILITY OFFICE; DAVID POWNER, DIRECTOR, INFORMATION 
TECHNOLOGY MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; 
JASON F. PROVIDAKES, SENIOR VICE PRESIDENT AND GENERAL MANAGER, 
CENTER FOR ENTERPRISE MODERNIZATION, MITRE CORP.; AND CHERYL L. 
JANEY, PRESIDENT, CIVIL PROGRAMS, HARRIS CORP.; ACCOMPANIED BY 
  MIKE MURRAY, VICE PRESIDENT OF PROGRAMS AND LEAD EXECUTIVE, 
                          HARRIS CORP.

                 STATEMENT OF STEVEN H. MURDOCK

    Mr. Murdock. On behalf of the U.S. Census Bureau, Mr. 
Chairman, I would like to thank you and the members of this 
committee for the opportunity to discuss our plans for the 2010 
decennial census.
    I am pleased to be joined by Deputy Director Jay Waite 
today. He will be bringing you up to date on the Decennial 
response integration system and the rest of the 2010 census 
programs.
    I am going to focus my remarks on the field data collection 
automation program [FDCA].
    The FDCA program was originally designed to supply the 
information technology infrastructure, support services, 
hardware, and software to support a network of over 450 local 
offices and hand-held computers that will be used around the 
country. It is helpful to think of FDCA as being made up of 
four fundamental components: first, automated data collection, 
using hand-held devices to verify addresses, what we call 
address canvassing; second, automated data collection from 
respondents who fail to return the mail questionnaire, what we 
refer to as non-response followup [NRFU]; three, the operation 
and control system that tracks and manages decennial census's 
workflow; and, four, census operations infrastructure, which 
provides office automation and support for regional and local 
census offices.
    In late 2007, the Deputy Director assessed the FDCA program 
and established an integrated program team charged with 
finalizing the FDCA requirements. This process was nearing 
completion when I arrived in early January. When Harris Corp. 
provided feedback at the end of January, the full scope of our 
problem came into focus. This process identified issues that 
raised concerns about the ability to complete development of 
all the operations initially planned for the FDCA system in 
time for the 2010 census.
    We now understand that the problem with the FDCA program 
was due, in part, to a lack of effective communication between 
the Census Bureau and the prime contractor for FDCA, and to 
difficulties in developing the full scope of the project within 
deadlines. We did not effectively convey to the contractor the 
complexity of census operations and the detailed requirements 
that needed to be fulfilled in order to complete the operations 
that FDCA covers. Once these detailed requirements were 
completely delineated, we had serious concerns about rising 
costs and our ability to complete a successful 2010 census if 
we continued developing the FDCA program as planned.
    As we grappled with this program, I established a task 
force chaired by former Census Bureau Deputy Director William 
Baron, and made up of some of the Census Bureau's and the 
Department's best people, as well as representatives from 
MITRE, to help us develop a strategy for moving forward.
    The task force outlined four options for moving forward. 
All of these options call for using the hand-held computers for 
address canvassing, and we are continuing to work to ensure 
this requirement is met.
    For the other major components of FDCA, each of the options 
considered a combination of responsibilities divided between 
the contractor and census in terms of capabilities, expertise, 
staffing, timing, and cost.
    The work of the task force was reviewed by an expert panel 
established by the Secretary and made up of two former Census 
Bureau directors, a former Associate Director of the Census 
Bureau, information technology experts, and a former Member of 
Congress. After receiving input from the expert panel members, 
the Secretary decided that we should move to a paper-based NRFU 
operation. This is a decision I fully support.
    The Census Bureau will implement NRFU and take 
responsibility for the regional census center infrastructure. 
Our contractor will continue developing the address canvassing 
operation utilizing the hand-held computers and develop the 
operations control system. This option increases our control of 
2010 census systems development, and the Census Bureau knows 
how to develop and implement a paper-based NRFU, and our 
decisions to do so again give us flexibility and minimizes the 
risks that we identified in FDCA program.
    At the same time, the plan allows us to leverage global 
positioning system technologies by using hand-held computers in 
the address canvassing operation. This will improve the 
accuracy of our address list, which is fundamental to an 
accurate census.
    Since becoming Director in January, addressing the problems 
associated with the FDCA program has been my highest priority. 
With the replan outlined today, I am confident we can put the 
2010 census back on track.
    Thank you for this opportunity. I look forward to answering 
any questions you may have.
    Thank you.
    [The prepared statement of Mr. Murdock follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.011
    
    [GRAPHIC] [TIFF OMITTED] T6196.012
    
    [GRAPHIC] [TIFF OMITTED] T6196.013
    
    [GRAPHIC] [TIFF OMITTED] T6196.014
    
    Mr. Clay [presiding]. Thank you so much, Mr. Director.
    We will now recognize Mr. Waite for 5 minutes.

                 STATEMENT OF PRESTON JAY WAITE

    Mr. Waite. Mr. Chairman and committee members, thank you 
for the opportunity to discuss our plans for the 2010 census. I 
would also like to thank the committee for their continued 
support in the Census Bureau programs.
    Since Director Murdock has outlined our plans to move 
forward with activities related to the field data collection 
automation system, I will talk for a few moments about vital 
aspects of the 2010 census that are underway.
    We have incorporated significant improvements over past 
census in our automation infrastructure. This includes the 2010 
Decennial response integration system [DRIS]. The purpose of 
the DRIS contract, which was awarded in 2005 to the Lockheed 
Martin Corp., is to ensure accurate and protected collection 
and storage of census responses. I am pleased to report that 
this contract is on schedule and actually under budget.
    Our plans for the 2010 census also include important 
structural improvements and enhancements to the Nation's road 
map. Our MAF/TIGER enhancement program is a multi-year effort 
to realign our TIGER data base, which is basically an 
electronic map of street center lines, with the GPS 
capabilities and modernized processing systems.
    We have contracted that with the Harris Corp. That contract 
is 99.9 percent complete. All of the streets have been 
realigned. We just have two or three counties that we are 
trying to verify at the end. We do not expect an issue. 
Certainly by the end of this year this contract will be 
complete and all of our maps will be aligned consistent with 
GPS technology.
    This activity is vital because the census must count every 
person living in America once and only once and in the right 
place. The MAF tells us where the housing units are located and 
furnishes a lists of addresses to contact, as well as providing 
a reasonable means of organizing our workload into non-response 
followup and tabulation operations. The accuracy and success of 
the census ultimately depends on the accuracy and completeness 
of the master address file.
    The success of the 2000 census also depends upon the 
American Community Survey, the largest household survey in the 
United States. The ACS replaces the traditional decennial 
census long form. In 2005 we began full implementation of the 
survey. In 2006 we incorporated group quarters, fulfilling our 
commitment to replace the long form in 2010. This year we will 
reduce the first detailed information for areas of population 
with 20,000 or greater.
    A sure sign that census date is approaching is the 
expansion of our field activities. All 12 of our regional 
census centers are now open for business. We have hired the 
first 48 partnership staff and will hire an additional 72 in 
May. We have provided 11,000 communities with detailed maps and 
address lists for them to help us in what we call our LUCA 
program, local updated census addresses. By working with local 
governments, we learn of new housing construction, as well as 
demolitions and conversion.
    In February 2009 we will conduct the address canvassing 
operation nationwide for nearly 134 million housing units 
across the country. In addition, we will begin to validate a 
list of approximately 86,000 group quarters. Also in 2009 we 
expect to employ 680 more people for the partnership program, 
most of whom will be specialists working in the field.
    With similar staffing levels for census 2000 we established 
approximately 140,000 partnerships, and our goals for this 
program are no less ambitious this time around. We believe 
these efforts were the turning point in our reducing--in fact, 
stopping--the steady decline of the response rates that we had 
observed over the decades.
    We rely on participation and cooperation of literally 
thousands of communities throughout the United States. Reaching 
residents in those communities, especially the hard to count, 
is one of the major goals of the census and the fulfillment of 
our Constitutional obligation.
    Our partners, advisory committees, national organizations, 
faith-based community, elected officials such as yourself, 
local community and neighborhood leaders, and even the go-to 
person at the corner shop all are integral to this effort. The 
Census Bureau is planning an integrated communication and 
promotional and marketing program to incorporate the 
partnerships and the advertising and the outreach.
    This is just a brief overview of several important aspects 
of the 2010 census.
    I thank you for the opportunity to talk to you on the 2010 
census, and I will be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Waite follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.015
    
    [GRAPHIC] [TIFF OMITTED] T6196.016
    
    [GRAPHIC] [TIFF OMITTED] T6196.017
    
    [GRAPHIC] [TIFF OMITTED] T6196.018
    
    Mr. Clay. Thank you so much, Mr. Waite.
    Mr. Scire, you are recognized for 5 minutes.

                   STATEMENT OF MATHEW SCIRE

    Mr. Scire. Mr. Chairman, members of the committee and 
subcommittee, thank you for the opportunity to be here today to 
discuss the 2010 decennial census.
    With me today is David Powner, Director with GAO's 
information technology team, who has been reviewing the Census 
Bureau's major information technology investments.
    As you know, we recently designated the decennial census as 
a high-risk area. We did so because of longstanding weaknesses 
in technology management, operational planning, and cost 
estimation, and because of uncertainty over dress rehearsal 
plans and the ultimate cost of the Decennial.
    Last week the Department and the Bureau announced major 
changes to how it plans to conduct the 2010 census. This 
redesign will have significant implications for the Decennial 
operations and costs. The redesign also highlights, again, the 
critical need for aggressive management of technology 
investments.
    First, the redesign will require that the Bureau quickly 
develop and test a paper-based non-response followup operation. 
This will require different operations, printing, and training 
programs. Also, because this change comes late in the decade, 
the Bureau will need to provide assurance that this huge 
operation and its linkages with other operations and systems 
will be tested in the absence of a full dress rehearsal.
    Second, the redesign calls for using hand-held computers 
for the address canvassing operation, except for in large 
assignment areas. This will require additional planning for 
operations, training, and equipment in those areas.
    Also, there remains some uncertainty as to how the Bureau 
will work around potential inabilities to update intelligence 
address lists once address canvassing has been completed. In 
this event, the Bureau may elect to deliver census forms by 
hand rather than via mail. It is critical that the Bureau 
ensure that the technology for conducting address canvassing is 
a success, and that it tests the design for large assignment 
areas and the linkages among address canvassing and other 
operations.
    Third, the redesign will result in additional cost. It is 
important to note that, having chosen to go forward with its 
original design, the Bureau estimated that the cost of the 
Decennial would be up to $2.3 billion more than it previously 
estimated. In comparison, the cost of the redesigned Decennial 
is expected to be up to $3 billion more than the previous 
census estimate. Regardless, it is not clear that these cost 
estimates fully recognize changes in expected productivity of 
field workers, and the ultimate cost of the Decennial is 
uncertain.
    We recommended that the Bureau use tools such as 
comprehensive integrated project plan, sensitivity analysis, 
and other tools that would help the Bureau better measure and 
manage the costs associated with individual operations. To 
provide the Congress with credible, accurate life cycle cost 
estimates, it will be important for the Bureau to demonstrate 
that its cost estimates reflect the most current understanding 
of important underlying assumptions, including productivity.
    Finally, the redesign makes more urgent the need for the 
Bureau to address significant and longstanding weaknesses in 
managing information technology. Going forward, it will be 
important for the Bureau to aggressively manage its key 
information technology investments.
    I will turn it over to Mr. Powner to expand on this, but 
before I do I want to thank you again for the opportunity to 
speak today and, as in the past, we look forward to supporting 
the committee's efforts.
    I would be glad to take any questions that you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.019
    
    [GRAPHIC] [TIFF OMITTED] T6196.020
    
    [GRAPHIC] [TIFF OMITTED] T6196.021
    
    [GRAPHIC] [TIFF OMITTED] T6196.022
    
    [GRAPHIC] [TIFF OMITTED] T6196.023
    
    [GRAPHIC] [TIFF OMITTED] T6196.024
    
    [GRAPHIC] [TIFF OMITTED] T6196.025
    
    [GRAPHIC] [TIFF OMITTED] T6196.026
    
    [GRAPHIC] [TIFF OMITTED] T6196.027
    
    [GRAPHIC] [TIFF OMITTED] T6196.028
    
    [GRAPHIC] [TIFF OMITTED] T6196.029
    
    [GRAPHIC] [TIFF OMITTED] T6196.030
    
    [GRAPHIC] [TIFF OMITTED] T6196.031
    
    [GRAPHIC] [TIFF OMITTED] T6196.032
    
    [GRAPHIC] [TIFF OMITTED] T6196.033
    
    Mr. Clay. Thank you, Mr. Scire.
    Mr. Powner, you may proceed.

                   STATEMENT OF DAVID POWNER

    Mr. Powner. Mr. Chairman, Ranking Member Davis, I just have 
two points to make this morning concerning moving forward and 
managing the technology acquisitions associated with the 
redesign.
    First, a clear integrated schedule with critical milestones 
and key deliverables and tests needs to be clearly articulated 
so that oversight can be performed by the Department and by the 
Congress. Test planning and execution will be critical to this 
integrated schedule.
    Second, a major concern we have is whether the Bureau has 
the capability to improve its program management and executive 
level governance of the technology. History tells us that sound 
management principles, both at the program level and at the 
Executive level, is not something that can just be switched on 
overnight. Because of this, I would like to stress the 
importance of having the Commerce Department executives play 
major governance roles as we approach this Decennial.
    Thank you. I will look forward to your questions.
    [The prepared statement of Mr. Powner follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.034
    
    [GRAPHIC] [TIFF OMITTED] T6196.035
    
    [GRAPHIC] [TIFF OMITTED] T6196.036
    
    [GRAPHIC] [TIFF OMITTED] T6196.037
    
    [GRAPHIC] [TIFF OMITTED] T6196.038
    
    [GRAPHIC] [TIFF OMITTED] T6196.039
    
    [GRAPHIC] [TIFF OMITTED] T6196.040
    
    [GRAPHIC] [TIFF OMITTED] T6196.041
    
    [GRAPHIC] [TIFF OMITTED] T6196.042
    
    [GRAPHIC] [TIFF OMITTED] T6196.043
    
    [GRAPHIC] [TIFF OMITTED] T6196.044
    
    [GRAPHIC] [TIFF OMITTED] T6196.045
    
    [GRAPHIC] [TIFF OMITTED] T6196.046
    
    [GRAPHIC] [TIFF OMITTED] T6196.047
    
    [GRAPHIC] [TIFF OMITTED] T6196.048
    
    Mr. Clay. Thank you very much for that testimony. We 
certainly look forward to those recommendations, and we will 
see if the Bureau will implement.
    Mr. Providakes, you may proceed for 5 minutes.

                STATEMENT OF JASON F. PROVIDAKES

    Mr. Providakes. Good afternoon, Chairman Clay, Ranking 
Member Davis, Ranking Member Turner, and distinguished members 
of the committee. It is an honor for the MITRE Corp. to appear 
before you today to update you on the progress of development 
of the field data collection automation program [FDCA].
    Accompanying me today is my colleague, Dr. Glen Hines, 
executive director of Civilian Agencies of the MITRE Center for 
Enterprise Modernization, as well.
    Now, the MITRE Corp. is a not-for-profit organization that 
is chartered to work in the public interest. MITRE manages the 
three federally funded research development centers, one for 
the Department of Defense, one for the Federal Aviation 
Administration, and one for the Internal Revenue Service. A 
federally funded research and development center is a unique 
organization that assists the U.S. Government with scientific 
research and analysis, development and acquisition, and/or 
systems engineering and integration. FFRDCs are established and 
designed for the purpose of engaging with Government over the 
long term in addressing long-term complex problems like FDCA.
    Federal acquisition regulations, FARDCs, operate in the 
public interest with objectivity, independence, and freedom 
from conflict of interest, with full disclosure of their 
affairs to their respective Government sponsors.
    It is, in fact, our privilege to serve with talented 
engineers and other professionals who support the Census Bureau 
in its efforts to prepare and conduct a 2010 decennial census. 
Because the decennial census is such an enormous undertaking, 
the Census Bureau seeks to employ technology as a means toward 
achieving efficiencies and increased accuracy. It is important, 
however, to recognize that technology, alone, is not the 
panacea. Technology insertion must be accompanied by changes in 
roles of people and processes they implement. Planning, 
acquisition, coordinating the changes to this combination of 
people, processes, and technology is very complex and filled 
with risk.
    Recognizing this reality, the Census Bureau sought in 2004 
to obtain MITRE's assistance. Beginning in March 2004 MITRE 
assisted the Census Bureau with feasibility assessments, hand-
held computers, recommendations for the FDCA acquisition 
strategy, analysis of risks, and mitigations to the FDCA 
program.
    Next, from February 2005 until August 2007 MITRE was not 
involved in the management or the technical aspects of the FDCA 
program. MITRE did create an independent Government cost estate 
during this period.
    From March 2007 until June 2007 MITRE was asked to perform 
risk assessments of the overall FDCA program, the hand-held 
computers, and security of these hand-held computers.
    And then, since August 2007, MITRE has been asked to 
provide continuing acquisition and system engineering support 
to the FDCA program.
    Also, the committee requested information on MITRE's 
involvement with the Decennial response integration system 
[DRIS]. MITRE has had little involvement with this program and 
has performed no assessments of DRIS. We, therefore, have no 
relevant documents or comments that we can submit.
    We remain committed to helping the Census Bureau overcome 
the current challenges of FDCA program to enable a successful 
2010 decennial census.
    Thank you for inviting us to your hearing. I would be happy 
to answer all your questions.
    [The prepared statement of Mr. Providakes follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.049
    
    [GRAPHIC] [TIFF OMITTED] T6196.050
    
    [GRAPHIC] [TIFF OMITTED] T6196.051
    
    [GRAPHIC] [TIFF OMITTED] T6196.052
    
    [GRAPHIC] [TIFF OMITTED] T6196.053
    
    [GRAPHIC] [TIFF OMITTED] T6196.054
    
    [GRAPHIC] [TIFF OMITTED] T6196.055
    
    [GRAPHIC] [TIFF OMITTED] T6196.056
    
    [GRAPHIC] [TIFF OMITTED] T6196.057
    
    [GRAPHIC] [TIFF OMITTED] T6196.058
    
    [GRAPHIC] [TIFF OMITTED] T6196.059
    
    Mr. Clay. Thank you very much.
    Ms. Janey, you can finish it out.

                  STATEMENT OF CHERYL L. JANEY

    Ms. Janey. Mr. Chairman, members of this committee and 
subcommittee, thank you for this opportunity to discuss Harris' 
role in supporting the Department of Commerce and the Census 
Bureau in the modernization of the 2010 decennial census. 
Accompanying me today is Mike Murray, vice president of 
programs, and the lead executive for Harris on the FDCA 
program.
    Harris' role in the automation process is to provide the 
Bureau with the technology and infrastructure it needs to make 
this shift. Harris Corp. designed and refined mobile hand-held 
computing devices to automate work in the field.
    As you know, the Census Bureau recently made the decision 
to use the hand-held devices for address canvasing, but to 
revert to pen and paper for the non-response followup. We were 
not involved in many aspects of that decisionmaking process; 
however, I can say that there is more to the wholesale cultural 
transformation that the Bureau is undergoing than technology 
alone. We believe three primary factors contributed to the 
decision to revert to paper, based on our conversations with 
census and Commerce officials.
    First, the Bureau lacked sufficient and well-defined 
specifications for systems and process requirements at the time 
it originally issued its request for proposal [RFP].
    The second factor is a direct outgrowth of the first: as 
census officials attempted to determine their needs, the 
project evolved. They were compelled to repeatedly adjust and 
add new requirements. It was just this past January, 2 years 
after the RFP was first issued, that we received more than 400 
new and altered contract modifications. At this late stage of 
the process, even minor or cosmetic new requirements require 
reevaluating the system design in order to assure that each new 
component is fully integrated. We have been urging the Bureau 
for over a year to finalize requirements, and have been working 
with them to that end.
    While Harris prides itself on being an expert in 
information technology and systems integration, we have no 
authority to adjudicate the competing goals and requirements of 
internal census divisions or stakeholders. That is inherently 
Governmental responsibility. We must rely on our customer to 
tell us what requirements they need; then we design a system 
accordingly.
    During recent congressional hearings it was asked why 
Harris' contract has doubled in cost while the scope appears to 
have been cut in half. The answer is straightforward: the costs 
have increased as the scope of the project has increased. Let 
me give you a few examples of some of the major cost drivers.
    Due to more conservative assumptions by the Bureau, 
additional staff, hours of operation, and equipment have been 
added to handle expected increases in call volume, and, as a 
result, the help desk cost has grown significantly.
    Of the more than 400-plus new requirements received in 
January 2008, only approximately 15 percent can be eliminated 
as a result of paper-based non-response followup.
    There has been more than a 50 percent increase in the 
equipment requested in local census offices.
    An automated followup solution has already been developed, 
with sum cost of about $25 million and now must be redeveloped 
to support a paper-based process. And the number of hand-helds 
allocated for address canvassing has increased from 63,000 to 
over 140,000.
    In summary, we are doing nearly twice the work, not half 
the work.
    Let's remember strides have been made in the census 
modernization effort. The census data base has been 
successfully digitized under another Harris contract with the 
Census Bureau, MAF/TIGER, ahead of schedule and under budget. 
The Census Bureau now has GPS-anchored geomapping resources 
that provide satellite precision. An operations network has 
also been put in place, with unprecedented security measures to 
protect the private data of American citizens. Hand-held 
devices are being readied to replace van loads of paper for 
address canvassing.
    With these strides the Census Bureau has formed the 
foundation for continued automation.
    Harris also understands the importance of being good 
stewards of Government dollars. I can assure you that we always 
have and always will continue to operate with the highest 
regard for this responsibility. Every month during the program 
Harris provides complete transparency to the Bureau of our 
cost, schedule, and technical performance. Harris is committed 
to helping the Census Bureau make the 2010 census a success, 
and it is apparent that all parties, and at the highest levels 
of leadership, share that commitment.
    Mr. Chairman and members of the committee and subcommittee, 
I appreciate the opportunity to testify and invite your 
questions.
    [The prepared statement of Ms. Janey follows:]

    [GRAPHIC] [TIFF OMITTED] T6196.060
    
    [GRAPHIC] [TIFF OMITTED] T6196.061
    
    [GRAPHIC] [TIFF OMITTED] T6196.062
    
    [GRAPHIC] [TIFF OMITTED] T6196.063
    
    [GRAPHIC] [TIFF OMITTED] T6196.064
    
    [GRAPHIC] [TIFF OMITTED] T6196.065
    
    [GRAPHIC] [TIFF OMITTED] T6196.066
    
    Chairman Waxman [presiding]. Thank you all for your 
testimony.
    Mr. Powner, GAO repeatedly warned the Census Bureau that it 
needed to plan better for this program. In their 2004 report, 
you concluded that the Census Bureau needed to improve the 
rigor of its planning process by developing an operational plan 
that consolidates budget, methodological, and other relevant 
information about the census into a single comprehensive 
project plan that would be updated as needed; is that correct?
    Mr. Powner. That's correct, sir.
    Chairman Waxman. But the Census Bureau failed to do this. 
They went forward with the contract that had inadequate 
specifications, relied far too heavily on a private sector 
contractor, and provide wholly inadequate contract oversight. 
As a result, the American taxpayers now face billions of 
dollars of increased cost.
    Regrettably, this has been the rule rather than the 
exception under the Bush administration. The same thing 
happened with reconstruction efforts in Iraq, where we 
squandered billions of dollars.
    The response to Hurricane Katrina suffered from a similar 
lack of advance planning. In 2006, GAO found that neither FEMA 
nor the Army Corps of Engineers had adequate contingency 
contracts in place. According to GAO, the failure to explicitly 
consider the need for and management of the contractor 
community played a major role in the mismanagement of the 
relief effort.
    In 2005 the Inspector General of the Department of Homeland 
Security reported that homeland security procurements suffered 
from the same problem, again costing taxpayers millions of 
dollars. The IG warned that by approving programs without 
adequately defined technical requirements, DHS risked likely 
adverse costs in schedule consequences.
    Well, it just seems to me that what we are seeing is the 
same thing happening over and over again.
    Mr. Waite, how do you justify the actions of the Commerce 
Department and the Census Bureau? You were repeatedly told you 
needed to make fundamental reforms, but you never did.
    Mr. Waite. I think that we were making fundamental reforms, 
but they were coming much too slow, Mr. Chairman. We had more 
to do probably than we had the time to do. We were still 
testing some of our procedures to try and see what our 
requirements should be. In retrospect, we were very slow in 
catching up to this problem. I only really fully grasped the 
significance of the problem in about November 2007. We were 
trying to do what GAO had said, but we found that to be a very 
difficult task in the time limit that we had, and I would say 
we were too slow in getting that done.
    Chairman Waxman. Well, Mr. Powner, GAO raised many of the 
red flags that were ignored. The problem got so bad that last 
month you put the 2010 census on the high-risk list. Do you 
think the Department of Commerce and the Census Bureau have 
acted as responsible stewards of the taxpayers' dollars?
    Mr. Powner. Mr. Chairman, I think it is unacceptable what 
happened here. I mean, as you clearly pointed out, in 2004, at 
the request of this committee, we started looking at 
institutional processes at the Census Bureau to manage $3 
billion worth of IT contracts. At that time we said they did 
not have those processes and management capabilities in place.
    In March 2006 we testified in front of Chairman Turner at 
the time. If you go back to that transcript, we made comments 
along the lines of relying on the contractor for technical 
solutions is fine, but relying on contractors for requirements 
is not. Those were the exact words.
    Time ticked along. We followed up on our recommendations. I 
point to the MITRE study, because MITRE then in June 2007 
pointed out the same things. They said requirements were 
unstable and they needed to stabilize the requirements 
immediately. Those requirements did not get stabilized until 
the December/January timeframe. That is not immediately. So it 
is unacceptable the lack of action and also the lack of 
transparency.
    Chairman Clay held a hearing on December 11th. A lot of 
these MITRE findings were known at the time and they were not 
disclosed at that hearing.
    Chairman Waxman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Clay [presiding]. Thank you, Mr. Chairman.
    Mr. Davis.
    Mr. Davis of Virginia. I understand now the Bureau has 
asked for some reprogramming of money from this fiscal year. 
What happens if they don't get that? What is the solution? 
Let's assume you don't get that at this point. How are we ready 
for the 2010 census at that point?
    Mr. Murdock. We are going to certainly face some 
significant challenges if our funding does not continue or we 
do not get the funding that we need.
    We are working, as you know, with the Department and, with 
their effort, to work with Congress----
    Mr. Davis of Virginia. I am just asking what happens if you 
don't get it. I know you are trying to get it, but if you don't 
get it what happens?
    Mr. Murdock. Well, we are looking at the contingencies 
right now, developing plans that will indicate what our options 
are.
    Mr. Davis of Virginia. They are not very good, are they?
    Mr. Murdock. They are not. Right.
    Mr. Davis of Virginia. What would it include? If you didn't 
get this, it puts you further and further behind in doing the 
correct count. Could it lead to an under-count in major cities?
    Mr. Murdock. Well, there is a variety of things that could 
happen, but certainly time here is our biggest enemy. We need 
to be about moving forward with our new plan.
    Mr. Davis of Virginia. It seems to me that we can sit here 
all day and bash people who messed this up, and it was a big 
screw-up, and we will get into a little bit of analysis. It is 
not just Commerce Department. This is throughout Government, 
whether it be contracting officials who aren't trained, they 
get in over their heads sometimes. They don't give appropriate 
supervision. We don't give them good training. This is what you 
get.
    If it were just the Commerce Department it would be one 
thing, but this is, I think, endemic across Government. That 
has been my experience.
    But, having said that, we want the census to go on. I know 
Mr. Clay wants a good count in St. Louis. I want a good count 
in Fairfax and in Virginia. I am just worried about how we work 
together as Republicans and Democrats with the Department to 
make sure that everything is in line for a good count in 3 
years. If we don't have that, you can't sample without 
legislative changes, and that is going to take 60 votes in the 
Senate. It is unlikely it will occur. So I am trying to think. 
You know, just walk me through some of the contingencies that 
you are looking at.
    Mr. Murdock. Well, we are just in the beginning phases of 
planning those and working those out with the Department, and 
when we have worked those out and we have the alternatives to 
look at, I will be glad to bring those back and talk to you 
about them.
    Mr. Davis of Virginia. OK. But if you don't get this money, 
it becomes more problematic, doesn't it?
    Mr. Murdock. It becomes more problematic. And the longer it 
takes for us to get things up and running, the longer the 
delays are, the more difficult it is for us, because time is 
our biggest enemy.
    Mr. Davis of Virginia. OK. Let me just ask our GAO rep, and 
then anybody else can respond: if this is about the lack of 
defining requirements early on and making sure they were 
concise and universally accepted, why didn't the Bureau 
recognize this and take action prior to the contract award? 
Were they over their heads?
    Mr. Powner. Ranking Member Davis, we had that discussion. 
We testified in front of Chairman Turner's committee at the 
time in March 2006--I believe that was a month prior to 
contract award--and our take on this is you wanted to find as 
much as early as possible, and I had discussions with Mr. Waite 
and others about the need to do this, if not prior to contract 
award, soon thereafter. Again, I think soon thereafter, after 
April 2006, is not December 2007 or January 2008.
    Mr. Davis of Virginia. Anybody else want to respond to 
that? I mean, did we have the right people on this, or was this 
a question of just not having the capability in-house to get 
this done?
    Mr. Waite. I think that we had the right people on this. I 
think that we clearly were asking for ourselves and asking the 
Census Bureau to do a fundamental cultural change, and I think 
that cultural change was probably too great. We issued a 
contract for a solution, and we really were not--our field 
staff, which uses this mostly, really were not fully prepared 
to go for a contract for a solution. Much of these changes and 
requirements come. I'd like you to do a contract for solution. 
You bring me the solution. I said, no, I don't want it that 
way. I want it changed. That costs money and time.
    Mr. Davis of Virginia. So basically the regional offices, 
there was a resistance to some of the changes, that kind of 
thing?
    Mr. Waite. I don't think there was a resistance. When they 
saw the contract for solution product, there were things they 
believed that they needed that clearly were not communicated 
well enough to the Harris Corp. that we couldn't deal with the 
particular products that came from the solution.
    Mr. Davis of Virginia. Had they been brought in earlier, 
you might have had a different result?
    Mr. Waite. Yes, that's true.
    Mr. Powner. Mr. Chairman, if I could add to that.
    Mr. Davis of Virginia. Yes, please.
    Mr. Powner. Whether it is a solutions contract or not, 
defining your requirements up front, telling the contractor 
what you need is project management 101. So, in terms of not 
doing that, from a project management point of view and from an 
Executive level governance point of view, clearly those folks 
are at fault and were not doing the right things.
    This isn't something new. This is something we do on every 
IT acquisition across the Government. We define what we want in 
as much detail as possible so that we don't have this.
    Mr. Davis of Virginia. Right. We see this time and time 
again. I just add the one contract that I know that Congress 
has been involved with is the Capitol Visitors Center. That is 
not an IT contract, but that was one where we kept changing the 
requirements, and now it has escalated three times what it was 
going to be. It is way behind schedule. I mean, this is what 
happens.
    At the end of the day, this is up to managers to try to 
work through this, and this was a failure of that. The 
contractor is sitting out there. If you give them the 
appropriate guidance and you put the appropriate reigns, this 
stuff generally works out. Sometimes, occasionally you find a 
contractor that is not competent to do the business, but that 
wasn't the case here, was it, Mr. Powner?
    Mr. Powner. No, that's clearly not the case. But also, too, 
this is clearly a Government issue. The Census Bureau is at 
fault. But also, to balance this a little bit, I think, with 
all the red lights that were going on and the sirens along the 
way, including all the hearings that the various subcommittees 
associated with this full committee held, you know, the Harris 
Corp. does have a responsibility to converse with the Census 
Bureau in terms of helping to stabilize and define those 
requirements more completely.
    Now, to the extent that went on, we are not privy to all of 
those discussions, but I don't think they are entirely off the 
hook here.
    Mr. Davis of Virginia. They get paid, though, anyway. It is 
like it is churning if they don't ask questions. But I hear 
you.
    Mr. Powner. Thank you.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Clay. The gentleman from Virginia's time has expired.
    Let me start with Mr. Waite and Mr. Murdock. At what point 
did the Bureau realize that the requirements for the hand-helds 
were not sufficient? At what time?
    Mr. Waite. We began to understand the requirements needed 
to be further defined for the 2010 census, itself, in around 
August and September 2007. I had specific meetings with Harris, 
with MITRE, and with parts of the Census Bureau staff in 
November 2007 where it was clear for me at that time that we 
were not going to be able to get all of the requirements done, 
and that a big reason that they were not done was that there 
were still some outstanding requirements that needed to get 
fixed. That's what we implemented almost immediately. We should 
have done it sooner, for sure, but by the middle of January we 
had the requirements finalized, and then we really could see 
the full depth of how much was missing.
    Mr. Clay. OK. But in April 2006 the contract was awarded as 
a cost-plus contract, $600 million. Since 2004, GAO and the 
Inspector General issued no less than nine reports with their 
concerns, and the concerns fell into four general categories: 
the Census Bureau needed to define specific, measurable 
performance requirements for the hand-held mobile computing 
device; the Bureau needed to develop and integrate a plan to 
control the cost and management operation; the Bureau needed to 
maintain diligent oversight of its contractors; and the Census 
Bureau needed to strengthen their systems testing and risk 
management activities.
    Now, when did you take their recommendations and actually 
follow through on them?
    Mr. Waite. Well, let me look at these individually.
    First of all, the performance requirements, we were still, 
at the time we let the contract, we were still testing hand-
held devices of our own making out in dress rehearsal and 
trying to define some details of the contracts.
    We got all of the requirements taken care of for the 
address canvassing part in the late summer of 2007. We finished 
all of the requirements for the 2010 portion of the census in 
January 2008. Developing the integrated, comprehensive plan, 
people were working on that. It was a very difficult task, and 
I don't honestly think we fully ever got that done.
    Maintaining the maintenance and looking at what was going 
on, we had 50 people at a program management office of 50 
individuals whose job it was to monitor the progress of the 
Harris contract and to report monthly on the progress, what was 
happening.
    What I was getting, sir, is very, very positive reports 
that everything was in control until about October 2007.
    Mr. Murdock. And I think, Mr. Chairman, that we recognize 
that we have not done everything right in the past, and clearly 
we need to go forward with new plans, with a new management 
approach of outline one that we can discuss in detail if you 
wish.
    Mr. Clay. Very good. I look forward to that outline and 
that approach, and hopefully in the near future.
    Ms. Janey, let's start with the cost of FDCA. It has been 
the talk of Capitol Hill and the country. As you know, I 
expressed my concern about the fact that the contract price has 
doubled, from $600 million to $1.3 billion. It is unacceptable 
at any time, but it is worse at a time when the economy is in 
the tank and many Americans are struggling to pay for gas, 
food, and shelter.
    So help us understand what happened. Why is the cost 
double, and what do the American taxpayers get for the extra 
$700 million? As you know, $700 million is not pennies.
    In the original contract, could Harris have performed all 
of the requested functions on the hand-helds? And at what cost?
    Ms. Janey. As I said in my oral testimony, Mr. Chairman, 
there were many contributing factors that have resulted in the 
cost going higher, driven primarily by changes in assumptions 
on the part of the Census Bureau. The numbers of hand-helds for 
address canvassing have increased from 63,000 to 140,000. The 
assumptions that were made on help desk have increased from 
about 150,000 or 160,000 anticipated help desk calls to over 
760,000 anticipated help desk calls.
    Mr. Clay. Let me stop you there. Let's talk about the 
number of hand-helds have gone from 63,000 to 141,000. Weren't 
the original numbers for hand-helds 500,000?
    Ms. Janey. Yes. Let me be clear. The number of hand-helds 
allocated to address canvassing have increased by 63,000 to 
140,000.
    Mr. Clay. Wait a minute. Hold it. I am just a layman, 
really. I am not an attorney or anything else. What were the 
original 500,000 hand-helds supposed to perform?
    Ms. Janey. Some were allocated to address canvassing, 
others were allocated to non-response followup.
    The basic point, Mr. Chairman, is that the number of 
enumerators increased, and increased fairly substantially based 
on assumptions provided by the Bureau.
    Mr. Clay. I am not going to let you just keep going on. I 
need some answers. Try to answer this one for me. Given the 
problem with FDCA, what assurances can you give this committee 
that the technology needed to compile and integrate and 
maintain the data bases as complex as MAF/TIGER will work on 
the hand-helds? Has MAF/TIGER been tested with the final 
version of the hand-helds?
    Ms. Janey. Mr. Chairman, as I mentioned in my testimony, 
with me today is Mike Murray, who is the Vice President of 
Programs and Lead Executive on FDCA specifically, and I would 
invite him to answer this question.
    Mr. Clay. You can't answer the MAF/TIGER?
    Ms. Janey. I can answer MAF/TIGER.
    Mr. Clay. Go ahead.
    Ms. Janey. Yes, MAF/TIGER does----
    Mr. Clay. We will hear from Mr. Murray later. You can 
answer MAF/TIGER now.
    Ms. Janey. The question on MAF/TIGER is does MAF/TIGER work 
on the hand-helds?
    Mr. Clay. Has it been tested?
    Ms. Janey. Yes, it has.
    Mr. Clay. The final version of the hand-held?
    Ms. Janey. It has been tested. Yes, sir.
    Mr. Clay. And it works?
    Ms. Janey. Yes, sir.
    Mr. Clay. It works, so there won't be any cost overruns 
there?
    Ms. Janey. The hand-held works. The cost----
    Mr. Clay. Will there be cost overruns?
    Ms. Janey. Excuse me, sir. The costs were driven by the 
requirements. Assuming the requirements do not change, no.
    Mr. Clay. Thank you.
    Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    The chairman and I were discussing this issue on the House 
floor, and both of our incredible frustration that we should be 
in this position now. When the chairman was talking about the 
issue of oversight and how Congress looks at this matter, I had 
staff take a look and pull what our committee had done on this. 
I chaired this subcommittee from January 2005 to December 2006 
and found that we had four congressional hearings, three 
congressional briefings on this matter, receiving the GAO 
report that is referenced in the current GAO report dated 
January 12, 2006, and the one dated March 1, 2006. We held our 
last hearing on the census September 6, 2006.
    I looked specifically at a hearing that was dated March 1, 
2006, and it states as its summary that the Bureau continues 
its preparation for a short form on these censuses, undertaking 
two major contracts, the field data collection automation 
program and the Decennial response integration system. These 
two technology contracts have a combined value of over $1 
billion. This is our hearing in March 1, 2006.
    I have my opening statement from that, based upon the GAO 
report, and my opening statement says, ``It is our 
understanding that the hand-helds failed to perform adequately 
and activity was concluded without finishing the address file 
that is needed in the next phase. These issues must be resolved 
before the 2008 dress rehearsal. I am eager to hear what the 
Bureau is doing to address the problems of their tests and 
other issues related to 2010.''
    I went to go see then who was in attendance at that 
hearing, and I am pleased to report that both Representative 
Clay and Representative Maloney were both at the hearing as we 
began the process of saying to the Census Bureau that GAO has 
told us and we all know, as of March 1, 2006, that unless the 
Bureau undertakes the reforms necessary that were listed by 
GAO, that we would be in the situation that we are in now.
    We continued to receive assurances, and Chairman Clay 
reports that, as he has chaired this subcommittee, that the 
Census Bureau has continued to provide assurances that the 
tasks were going to be met, and yet we are here again now.
    Mr. Powner, you testified in that hearing in March, telling 
us the measures that were necessary that the Census Bureau 
needed to take in order to be successful.
    So I want to ask the panel the question that I asked 
Secretary Guitierrez, because it seems to me, from the hearings 
that we held and the briefings that we held when I was chairman 
and that we are facing today, that this is a mismanagement 
issue, that this is something that was accomplishable. That is 
what I want to ask each and every one of you, because today I 
believe we are being told that it is not accomplishable within 
the time that is left. But when we raised the issue and when 
the issue was first addressed by GAO and there was even a road 
map, if you will, of what the Census Bureau needed to do, it 
appeared that it was accomplishable then. So could you tell me? 
We will start at the left end of the table. Was this task 
accomplishable?
    Mr. Murdock. Well, what I would say in answer to the key 
question you started out with is that my view, coming in when I 
did, is that we clearly didn't do everything we should. I think 
there were things that both ourselves and the contractor could 
have done better. I think we didn't scope our requirements as 
fully as we should have at the beginning of the process. We 
didn't communicate well to our contractor in terms of what----
    Mr. Turner. Can you hold on a second? I don't have that 
much time. We only each get 5 minutes.
    Mr. Murdock. OK.
    Mr. Turner. I have already heard the why we can't do it now 
or what impacted the inability to do it. I am starting from 
when this was tasked. When there was first a decision that this 
was going to be undertaken, was it accomplishable? 
Technologically, process-wise, was this accomplishable? Mr. 
Murdock, we will start with you.
    Mr. Murdock. I believe that at the time that it was 
accomplishable given the requirements that were on the table. 
It wouldn't have been accomplishable even then, sir, if all the 
requirements that are now in place had been there. It wouldn't 
have been accomplishable.
    Mr. Turner. Which were your requirements?
    Mr. Murdock. Right. If we had the full requirements, it 
would not have been accomplishable then in the given budget.
    Mr. Turner. When we had our hearing on March 1, 2006, when 
GAO had reported that there was a problem with the project and 
my statement in opening said that the hand-helds had failed and 
that GAO had indicated what needed to be done in order to 
accomplish this in time, was it accomplishable then?
    Mr. Murdock. I think it was. I think that when GAO reported 
about the problems with the test of the hand-helds, they were 
not Harris hand-helds. They were hand-helds that we had 
purchased off the shelves, and we were testing them. We had 
every reason to believe, based on the contract negotiations or 
the contract bids where all of the companies actually put forth 
a skeletal version of address canvassing, that the Harris hand-
held would be far superior to the ones that we were using.
    Mr. Turner. OK. I am going to go down the line and I am 
going to ask each person to answer this also, but I wanted to 
leave you with one comment before I go on to let them answer 
this question, and that is: there are several problems here 
that we are facing, one of which, of course, is the just 
unbelievable waste of taxpayers' money, the complete 
mismanagement of this project.
    But the most important issue, the one that we addressed in 
the four hearings and three congressional briefings that we had 
and in this subcommittee when I chaired it is that people have 
to have faith in the census. When the credibility of the census 
is brought into question, it brings into question the processes 
that are used and whether or not the data and outcomes are what 
we all need to be able to rely on.
    We are going to need to ensure that the plan that you have 
next is one that everyone can look at and have those 
assurances, or we are all going to question the process as it 
is going forward and the end product.
    Mr. Chairman, if you wouldn't mind allowing me to continue 
down the line to have them answer the question of was it 
accomplishable.
    Mr. Scire. If I could add to that, I think that what you 
are observing here is not a failure in technology, it is a 
failure in management. It is also a failure in transparency.
    You were asking earlier about when the Bureau could have 
known. Well, last June the Bureau received reporting on the 
need for the requirements.
    In terms of transparency and going forward, I think it is 
important, for oversight purposes, for there to be a quicker 
turn-around in the results of the various tests and operations 
and benchmarks that the Bureau needs to establish for the 
redesign, for the redesign in terms of both address canvassing 
and in terms of the non-response followup.
    I will just point out that the address canvassing dress 
rehearsal happened a year ago, and we are now today talking 
about changing how that operation will be conducted. I don't 
think you want to be facing that a year from now, making 
decisions about how non-response followup is going to be 
conducted. So I think it would be fair to ask for more rapid 
turn-around in results of these tests and dress rehearsal 
operations, rather than the lengthy time that it has been 
taking.
    Mr. Turner. Thank you. Mr. Powner?
    Mr. Powner. I agree with Mr. Scire. This is accomplishable. 
The technology here is not hard. Clearly it was mismanagement. 
I would contend even if you had defined those 400 requirements 
back in the mid-2006 timeframe it was still accomplishable. 
This is not that difficult.
    Mr. Clay. Mr. Providakes, any comment?
    Mr. Providakes. Yes. I have to agree with much of that 
statement. I have been involved in many complex IT programs 
across the Department of Defense and Federal Government, and 
this is not one of them.
    Referring to an earlier statement regarding the 
requirements, I agree with Dave Powner that having as much 
requirements up front is good to have, but in today's world, 
where I was mentioning earlier, in the census where there's 
this large cultural change you have to expect the requirements 
to evolve.
    What really was not put in place was the process that would 
allow the requirements at some stage to evolve in the 
development and system development of FDCA to converge to 
provide the operational capabilities to the user, because even 
the end user was still sorting this out.
    So to my mind it was more of a process issue between having 
a set of initial hard requirements, putting in place a process 
that engaged both the contractor, the acquisition manager, and 
the user that would allow the evolution and convergence of 
that. That didn't occur at this time.
    Third, the topic of technology, this is not hard to do. I 
will look closely and suggest that the Bureau do a scrub of an 
estimate of the cost to go forward.
    Mr. Clay. Thank you.
    Ms. Janey, anything?
    Ms. Janey. No, sir. I agree. I think this was a doable 
task. Getting the volume of requirements changes as late in the 
process as we got it, two-thirds of the way through the plan 
development time, did have an impact. But I would point to 
address canvassing. It worked. There were challenges that 
certainly came out of the dress rehearsal, but that dress 
rehearsal was done a year ago. Many of the technological issues 
that were encountered were addressed. It is not a technology 
issue. I think it was doable.
    Mr. Clay. Thank you.
    Mrs. Maloney, you are recognized for 5 minutes.
    Mrs. Maloney. Thank you. I thank everyone for their 
testimony.
    I would like to ask Dr. Murdock and then Deputy Director 
Waite and Mr. Scire, Mr. Powner, right on down the line to Ms. 
Janey, as I said in my opening statement, I would like you to 
tell us what goals or benchmarks we should have that are 
objective and accountable and measurable so that by the end of 
this administration we can get some confidence that if you met 
them, and once this body responded to your financial requested 
appropriately and you got all the money that you need to 
accomplishment, that it would actually work.
    As Mr. Powner said, and Mr. Providakes, this is not that 
hard. We should be able to accomplish this, but we haven't been 
able to accomplish it.
    So I would like to just go down the line and just find out 
what you should put out there to build confidence in us that 
you are going to fix the problem, that you are fixing the 
problem. I would like to also ask do you think we should have a 
monthly hearing or monthly reports on the progress or the 
problems that you are confronting, so that at the end of the 
administration we can actually get this done.
    As some of you have testified, this should not be that 
difficult. What do we need to get this done? And I believe that 
Congress in a bipartisan way will provide you with the funding 
that you need, but what benchmarks and really measurable items 
should be put out before this committee to let us know and 
build confidence that this is going to be accomplished?
    We will start with Mr. Murdock and go right down the line.
    Mr. Murdock. Let me begin by saying what we are doing in 
terms of preparing ourselves for this, and another way of 
saying that is that we do recognize we can't continue to do 
things in the way that we have in the past; that we have had to 
make changes, and we have made. I will give you some of our 
plans relative to future changes.
    We have strengthened our management. We have a decennial 
census director that comes from two backgrounds that are very 
important for us. He has an IT background and he has Decennial 
experience.
    We have established or strengthening our management program 
to include many of the elements that GAO has talked about, have 
risk management process, issue identification, doing extensive 
product testing, and increasing our communications, 
particularly the communications between ourselves and our 
contractor, and instituting tighter budget and cost management.
    We are beginning a process of embedding. By that what I 
mean is having our people working at locations with the 
contractor so that we can improve communication so we don't 
have this kind of gap that we had before in terms of getting 
rapid communication of needs and want.
    We have substantially increased the management intensity, 
meaning the involvement, in particular, of the Deputy Director 
and myself in the day-to-day operations of decennial census 
activities, particularly this FDCA.
    Let me give you some of the initial deadlines that we have. 
One of those is that we want to obtain an integrated project 
schedule, which is one of the things that has been called for 
by a number of groups. We plan to have that in about 45 days.
    We plan, prior to that, to having plan for the NRFU 
process. What I mean, a plan that tells us what we need to do 
in terms to do this under the new replan objective, which is to 
do it on paper. We will have that in 30 days. So 30 days for 
that, and integrated program schedule in 45 days.
    We plan to be doing address canvas testing of software 
within 60 days, and with ongoing then processes in terms of the 
embedding that we have talked about.
    We will flesh out in our plan, in our full plan, additional 
deadlines in terms of when we will do what and we will make 
sure that in that there are milestones that you and everyone 
else can hold us accountable for.
    Mr. Waite. I would just like to second a little bit some of 
the stuff that Dr. Murdock talked about. There are two very 
serious activities that need to be completed and we need to 
have those milestones, and I think we need to meet with you as 
often as you feel that we need to to make sure they get done. 
One is we have now gone over to a paper NRFU. There is no plan 
in the schedule for a paper NRFU, and so it is very critical 
that we get the paper NRFU details together, as Dr. Murdock 
said, and that in this integrated plan that we find places in 
our schedule to make sure, before the end of this summer, that 
we can, in fact, get the non-response followup done when we 
need to do it in 2010.
    Also, on the address canvassing, the main activities that 
Harris will be working on this summer, assuming that we have 
the resources, will be going back and making sure that any 
issues that were still unresolved from the dress rehearsal for 
address canvassing, or any issues that came up in the way of 
new requirements, they can get that programming done and we 
should be testing that within 60 days. If that doesn't happen, 
for whatever reason, the address canvassing to take place next 
spring is in some serious jeopardy.
    Mrs. Maloney. Thank you.
    Mr. Scire.
    Mr. Scire. Thank you.
    I agree with all of those. I think that for the address 
canvassing that there is a need for dates for the operational 
plan for large assignment areas. There would be a need for a 
deliverable or description of what their plans are for doing a 
restart/redo in the event that the information that is 
transmitted from the address canvassing operation is 
inaccurate.
    There is a need immediately, I think, to make public the 
address canvassing assessment, which is, I believe, still in 
draft.
    There is, as mentioned, an integrated project schedule or 
integrated plan is something that we have recommended for a 
long time. The Bureau has taken some initial steps in that 
direction, but there is still more that needs to be done there 
in terms of laying out the cost of individual operations, the 
risk of those operations, and the milestones in a way that you 
can see what progress the Bureau is making and what new 
assumptions, new information from the various tests, would 
cause shifts or changes in that integrated schedule and plan 
and cost.
    I think there is a need for a plan for a NRFU, which Dr. 
Murdock described. The testing of the software for address 
canvassing, which was mentioned. A clear description of what it 
is the Bureau is expecting from Harris in terms of a dashboard 
which is anticipated in the contract which would provide 
possibly real-time information during address canvassing of how 
that is proceeding.
    I think by laying that out, that is going to help also with 
this communication as to what is needed in terms of performance 
during the address canvassing operation.
    I will leave it there. I am sure that Mr. Powner will talk 
about things in the technology arena.
    Mr. Powner. I would just like to reinforce the integrated 
schedule, as I mentioned in my brief oral statement. It is very 
important that we understand when the technologies are going to 
be deployed, when they are going to be tested, when the 
operations are going to be in place. There is a lot that is 
going to need to be tested in terms of the interfaces between 
the various systems, along with the operations. We have called 
for clear end-to-end testing where we actually test significant 
functionality. All of that is up in the air right now.
    I think what is key for the Congress is that you have that 
integrated schedule, you understand the critical path, and that 
they are held to that.
    One other item. Forty-five days, I assume there was already 
an integrated schedule or aspects of an integrated schedule, 
and the sooner we can get that in place, if it was a bit 
quicker than 45 days, all the better.
    Mr. Providakes. I go pretty much all the rest. Clearly, the 
test and acceptance schedule. I think my biggest concern right 
now would be cost. I am having a hard time understanding the 
cost of the increase that has been submitted, and I think it is 
very important that the Bureau get with the contractor to 
understand those costs.
    MITRE has done a preliminary review of those estimated 
costs, and I cannot work it.
    Mr. Clay. Please let me inject right here that we would 
like from you, Mr. Providakes, as well as GAO, a scrubbing of 
Harris' contract. We would like your analysis of just what the 
American taxpayer is paying for. Are we actually stuck with the 
Harris Corp. at this point? And would you report back to this 
committee as soon as possible on whether we are actually stuck 
with this contract, this unreasonable condition, and give us 
your unbiased opinion?
    Mr. Issa is recognized for 5 minutes.
    Mr. Issa. I thank you, Mr. Chairman.
    Ms. Janey, do you know a gentleman named Vance Roland?
    Ms. Janey. Yes, sir.
    Mr. Issa. And are you aware of a letter that he sent out on 
February 13th confirming the stopping of work on a number of 
these projects, including the 140,000 hand-helds?
    Ms. Janey. I am.
    Mr. Issa. OK. And did that cause a cost to Harris in that 
personnel were put on something else, laid off, or contracts 
were canceled or postponed for some period of time?
    Ms. Janey. Going back in time, Mr. Roland's letter of 
February 13th was actually a request for clarification of a 
letter that we received from the Census Bureau February 11th 
that limited and directed us to focus on only four specific 
aspects.
    Mr. Issa. I have read both letters. I guess the question 
is: was there action taken after this letter that caused some 
overruns, costs, changes, delays? What action was taken by 
Harris?
    Ms. Janey. We did focus our staff and our subcontractors to 
the letter that we received from the Census Bureau. That did 
result in some people being reassigned or focused on other 
things.
    Mr. Issa. And I believe they are already in the record, but 
if they are not I will submit them for the record, both the 
letter to Mr. Roland and his response.
    Mr. Clay. Without objection, and thank you.
    Mr. Issa. Thank you.
    Mr. Clay. Mr. Murdock, you were on board for a very short 
period of time when the letter to Mr. Roland by Mr. Ross 
Jeffries went out, the contracting officer. Have you read that 
letter?
    Mr. Murdock. Yes.
    Mr. Issa. And I read the letter, and to me it says stop or 
limit your activities. Would you agree that is what it appears 
to say?
    Mr. Murdock. No, I would not.
    Mr. Issa. OK. Then have you read the letter back to Mr. 
Roland from Harris Corp.? Would you agree that they believed 
that it indicated that and were responding in their letter?
    Mr. Murdock. In our letter, which we had sent----
    Mr. Issa. No, no. We have already moved past your letter.
    Mr. Murdock. OK.
    Mr. Issa. Because I interpret it different than you 
interpret it, and I am willing to have that. I want to know 
about the Harris letter that very clearly says we are in 
receipt and blank, blank, blank. Is that pretty clearly saying 
that they believed that the letter said that they were to cease 
activities, cease or limit?
    Mr. Murdock. They indicated to us that they saw it as such 
a letter.
    Mr. Issa. OK. And the question is: why wasn't there an 
immediate reaction out of your offices if that was erroneous?
    Mr. Murdock. There were discussions that were done with----
    Mr. Issa. No, no. Why wasn't there immediate action? In 
other words, why would even 1 day go by when a vendor says we 
received your letter 2 days ago and we think you are telling us 
to stop?
    Mr. Murdock. There were telephone calls made to, in fact, 
Mr. Roland.
    Mr. Issa. OK. Would you provide the committee with records 
and personnel that made those calls and the substance of those 
calls? I don't have them?
    Mr. Murdock. I will.
    Mr. Issa. I appreciate that.
    Now, Mr. Murdock, you are a political appointee of the 
President.
    Mr. Murdock. Yes.
    Mr. Issa. How many appointees of the President are there in 
the Census Bureau?
    Mr. Murdock. I don't know the exact number.
    Mr. Issa. Three?
    Mr. Murdock. Three.
    Mr. Issa. OK. So substantially, of the many thousands of 
employees, it is a career position except for you and two 
others?
    Mr. Murdock. Basically, yes.
    Mr. Issa. OK. Mr. Waite, this is the 23rd census. I don't 
want to be too sarcastic, but this didn't come as a surprise to 
you that 2010 was going to be another one, did it?
    Mr. Waite. No, sir.
    Mr. Issa. And you were on board for the last one?
    Mr. Waite. Yes, sir, I was.
    Mr. Issa. And the last one cost us, the last 10-year 
period, which we are still in, cost us how much, versus the $15 
billion for this 10-year period?
    Mr. Waite. The last census cost about $6.7 billion.
    Mr. Issa. OK. So $6 billion for 240 million people, $15 
billion for 300 million people. Throw in inflation. This one is 
presently going to cost us more per person. I get it as about 
$50 a person to conduct, more than the previous one, even 
adjusted for inflation; is that correct?
    Mr. Waite. I don't have those figures. Fifty dollars more 
per person?
    Mr. Issa. No, $50 per person. I just did the numbers of $15 
billion into 300 million.
    Mr. Waite. That sounds about right, yes.
    Mr. Issa. The only thing I am really good at is money. I 
seldom miss a decimal point when it comes to the dollars.
    Mr. Waite. That's good.
    Mr. Issa. Billions and trillions sometimes get me, but I do 
my best.
    So for the American people, a Constitutional 
responsibility, 23rd time it is being done, clearly in the 
Constitution you have to do a physical count of Americans, 
including a followup, to diligently try to get every American 
counted.
    Mr. Waite. Yes, sir.
    Mr. Issa. Why is it, separate from Harris on again, off 
again, first 400 things to do, then 600, then 1,000, just this 
year. Separate from all of those things, which I understand, 
can you tell this committee why we are going to pay more, 
adjusted for inflation, to do it than we would have done if we 
simply counted the way we did the last time? I mean, this is a 
career. You folks are there year in, year out. You have 10 
years to plan each of these. Government Accountability I am 
sure would be glad to answer the question after you take your 
best shot at it, but tell us why we shouldn't be outraged that 
it is costing us more this time than last time, adjusted for 
inflation.
    Mr. Waite. Well, the taxpayer is getting more product. A 
big chunk of that increased cost is that, instead of getting a 
long form once every 10 years with that information, the 
American Community Survey is providing you that information 
annually, so it is a lot more current and it is a lot more 
useful since it is current. By the time you get to 2009, the 
2000 long-form data is not as useful as it could be.
    You are also getting a GPS-aligned TIGER system, which will 
virtually eliminate what we call geocoding errors, counting you 
once but counting you in the wrong place. That's because 
enumerators don't always know exactly where they are. If they 
get the help from technology, they can put that in the correct 
place.
    The real driver for cost, in my opinion--that's my 
opinion--we have set out for ourselves as a people a goal of 
virtually 100 percent counting. The last three or 4 percent are 
very, very expensive. Nobody at Census Bureau or at the 
Congress or anywhere else has been prepared to say well, we 
don't need to have 100 percent. We can live with 96 percent.
    My opinion is unless something is done about that, and you 
are always continually striving for every last person, these 
costs that you see at census will continue to go up. I don't 
see anything that is going to stop that.
    Mr. Issa. Mr. Chairman, I hope the Government 
Accountability Office could answer their view of it, but I do 
want to say that, at least as one person on the committee, 
every American needs to be counted in the census, and if it 
costs us more to do it, at least I, for one, think it is well 
invested and not a choice. I would like to hear sort of the 
other part of why this went up so high, if you could indulge 
us.
    Mr. Scire. If I may, in addition to what Mr. Waite 
described, the response rate or the difficulty in getting 
people to respond to surveys generally has increased over time, 
and that explains part of the increase in cost of the decades. 
Also, the nature of households is different, where it might be 
more difficult to count some households today than 10 years 
ago. There are far more households than there were 10 years 
ago. But nonetheless, as you pointed out, in a constant dollar 
basis and on a per person basis, the cost is definitely going 
up over the decades.
    I would add to that there is a lot of uncertainty right now 
as to what this will cost. The estimates that you are receiving 
right now I would not necessarily characterize as being 
accurate or credible. We are doing work right now which is 
looking closely at those issues. But, just to give you one 
measure here, and that has to do with assumptions regarding 
address canvassing operation, in the life cycle cost model it 
is estimated that address canvassers would be able to do 25.6 
housing units per hour. They actually discovered in the dress 
rehearsal that they are doing more like 13.
    I am not certain that is reflected in the estimates that 
you are receiving right now, so if that were to be put into the 
cost model I would expect the cost to be even greater.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Issa.
    Mr. Issa, would you provide us with the copies of all of 
the material you have inserted into the record?
    Mr. Issa. Absolutely. Thank you, Mr. Chairman.
    Mr. Clay. Thank you so much.
    Mr. Hodes of New Hampshire, recognized for 5 minutes.
    Mr. Hodes. Thank you, Mr. Chairman.
    In 2008 the GAO issued a report saying the entire 2010 
census was high risk. One of the principal reasons was that the 
Census Bureau failed to develop an integrated and comprehensive 
plan to control its costs and manage its operations. Every year 
since 2004 the GAO made the same recommendation, and every 
single year it seems the Census Bureau ignored it to the tune 
of billions of dollars of wasted taxpayers' money.
    Mr. Murdock, in your written testimony you say at page 
three, ``We now understand that the problem was due in part to 
a lack of effective communication between the Census Bureau and 
the prime contractor, and to difficulties in developing the 
full scope of the project within deadlines.'' That's what you 
said.
    I just want to get through and make sure I understand some 
of what may be euphemism and what you mean. When you say we, 
are you meaning the royal we, meaning the Census Bureau as a 
whole?
    Mr. Murdock. I mean the Census Bureau. Yes. Particularly 
management.
    Mr. Hodes. OK. So you acknowledge that the Census Bureau 
has ignored the GAO's recommendations for developing a 
comprehensive cost management and planning process since 2004?
    Mr. Murdock. Well, I was not there, of course, and all I 
can know is what I have seen in the same documents that you are 
seeing, and I think we should have followed the advice more 
fully than we did. But that is easy to say from hindsight.
    Mr. Hodes. Mr. Waite, you would agree with that?
    Mr. Waite. I would agree that we had plans for every piece 
that we were testing. We were not working without plans. But we 
didn't have all those plans integrated.
    Mr. Hodes. And you also say, Mr. Murdock, that this was 
due, in part, to a lack of effective communication. How can we 
be assured that there is now effective communication between 
the Bureau and the contractor?
    Mr. Murdock. Well, I think the very program I talked about 
a few minutes ago, we have recognized that the communication 
was not what it should have been. We have restructured our 
program to ensure that communication is there. We recognize, 
the contractor recognizes that we need to cooperate to ensure 
that this census is completed on time and as accurately as 
possible. So we have committed, I think, each part to ensure 
that we move forward, because both of us, both the contractor 
and certainly we in the Census Bureau want to get a complete 
and accurate census.
    Mr. Hodes. Good. I want to get to the question of the 
operational requirements, management, and oversight in the 
following way. Mr. Powner, in 2006 you testified that the 
Census Bureau had not year approved a baseline set of 
operational requirements for the contract, am I correct?
    Mr. Powner. That is correct.
    Mr. Hodes. You also warned that the Census Bureau was 
planning to rely on the contractor, not its own Government 
experts, to help refine requirements, project plans, and 
performance measures, right?
    Mr. Powner. Correct.
    Mr. Hodes. So it sounds to me like you were warning that 
the Bureau was relying on Harris to set up the operational 
requirements.
    Mr. Powner. Clearly there was an over-reliance on the 
contractor.
    Mr. Hodes. Now, Harris, through Ms. Janey, has just 
testified here today that their problem, in large part, was 
because they weren't getting requirements from the Bureau. You 
heard that testimony. Can you help me square the testimony you 
gave and what actually happened? Who failed to do what in terms 
of the operational requirements, and how can we be assured 
today that the proper party is going to manage this, oversee 
it, and set the requirements?
    Mr. Powner. The requirements are clearly the Government's 
responsibility. OK? So clearly the Government needs to define 
to the contractor what it wants, so they are primarily at 
fault. This issue of miscommunication and now that we are 
communicating that is going to solve the problem, I mean, the 
problem here was miscommunication. The problem was an over-
reliance on the contractor. The problem was poor program 
management. And also the problem was poor leadership and 
governance. So that's what needs to occur. We need to shore up 
the requirements, we need to fix the program management, and we 
need to get the executives engaged in overseeing this.
    That is where we have some concerns, because you just don't 
flip a switch and then all of the sudden you are performing 
program management and executive level leadership in a stellar 
way.
    There was a mention of IRS. Years ago that was the problem 
IT project. Now when you look at their program management and 
executive level leadership it is one of the better in the 
Government. Why? Because they worked at it for years. So you 
can't just flip the switch, so that's a huge concern and that's 
why we made the comments that the folks at the Department level 
are going to need to also play a role in overseeing this whole 
initiative.
    Mr. Hodes. As you sit here today, you are still not 
confident that we have in place the management team at the 
Bureau to get done what you have just said needs to get done?
    Mr. Powner. We still have concerns, and one of our 
recommendations to the Secretary of Commerce has been when this 
happens with other agencies and departments, I mean, there are 
people who have a history of coming in and rescuing problem 
programs. There are some folks who are very good at doing that. 
Perhaps we need to look at that and look for help.
    Mr. Hodes. Thanks very much.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    Mr. Sarbanes, you are recognized for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Mr. Waite, you said plans weren't integrated. You had 
plans, but they weren't integrated, right?
    Mr. Waite. Correct.
    Mr. Sarbanes. Why weren't they integrated?
    Mr. Waite. Well, the integration is a lot more difficult. 
We were behind schedule, and we would put a plan together, for 
example, for address canvassing, and we had detailed plans of 
how to do that address canvassing, but we didn't have that 
integrated into the operations that would go behind it. We need 
to do that, and we are working on that integration, and we now 
are very, very close to getting that done, but it is too late. 
It is a lot longer than it should be. It is a very big job. 
There's literally thousands of activities that need to make 
sure that they fit together.
    Mr. Sarbanes. Mr. Powner, do you do integration by having 
an integration team? And what are the things about this census, 
if there are things about this census, that make it apparently 
a so much more complicated management exercise than the last 
census? In other words, are you prepared to excuse the lack of 
management that you see based on some new and different 
dimensions of the way we want to see the census done this time 
around, or not?
    Mr. Powner. Clearly I don't believe there is an excuse. 
Many aspects of the operations are similar in that clearly 
individuals in this room and at this table have experience in 
conducting prior census. I think there is a unique aspect where 
they are relying more on technology and they do not have a 
culture that has a history of effectively acquiring the 
technology.
    I am not saying that is an excuse, but I do think you want 
experienced individuals managing those technology acquisitions, 
and clearly there is room for improvement here.
    Mr. Sarbanes. Is there more reliance this time around on 
outside contractors because of the technology requirements?
    Mr. Powner. Yes, there is more, but we also had technology 
with the 2000 census. Interestingly enough, there is some of 
the same lessons learned. The IG issued a report on the lessons 
learned from 2000, and this whole requirements issue came up in 
2000 where we had cost increases with the technology that was 
acquired then.
    Mr. Sarbanes. Mr. Murdock, you all appear to have conceded 
that there was a breakdown in management, and that has 
certainly been the observation from the GAO, so I am curious as 
to specifically what changes in the management process and the 
people. You don't have to give me names, but what are the kinds 
of positions, management positions that are being looked at to 
make sure that going forward this doesn't happen again.
    Mr. Murdock. Well, we certainly have done a number of 
things. I talked about the intensification of management, but 
we are also going to increase the role of our contractor that 
helps us by watching us from the outside, so to speak, even 
though they are our contractor, and tell us when we are going 
away. MITRE is going to play a much more active role in the 
management of our projects to tell us when we may be doing 
things that are not in good concert with the best practices.
    As I said, we have a new Decennial Director who has 
experience in IT as well as decennial census. I think, more 
importantly, we are going to have processes such as recurrent 
meetings between ourselves and the contractor, daily and 
biweekly meetings that look at individual risk factors. What 
are the risks that we are dealing with now? Important to us, or 
perhaps lacking for us in the past, has been an am the of 
decisiveness in terms of making decisions in a quick manner so 
we can move forward to complete our objectives. We are 
instituting processes that will ensure that decisions are made 
on key factors in a timely manner.
    Very important, as well, is there is a good indication that 
we didn't do as much testing as we should. The end-to-end 
testing that one of the other panelists talked about is a key 
part of our plans going forward. We are going to ensure that 
our products are working before we take them to the next stage 
in development and application.
    So we are substantially changing the processes that have 
been used and we do have people such as myself that are new in 
this process, but which also have, if you will, a new set of 
eyes to look at what we have done and to move forward.
    Mr. Sarbanes. Well, there were so many warnings that came 
along the way, it is just curious why you didn't do these 
things, why the Census Bureau didn't respond that way before.
    Can I ask one real quick question of Mr. Powner and Mr. 
Scire?
    Mr. Clay. Sure.
    Mr. Sarbanes. Can you just tell us, in terms of the 
redesign, looking ahead, what are the things that you worry the 
most about not happening that need to happen, the sort of risk 
points? Take two or three that maybe aren't keeping you up 
nights, hopefully, but when you focus on it you could predict 
that if there is going to be a problem, if there is going to be 
a breakdown in the redesign, here is where it is going to be 
and here is when it is going to happen.
    Mr. Powner. Well, from a technology point of view, there 
are three things that I would still worry about. One is 
requirements. We still need to stabilize those requirements. 
There are other contracts. There was a comment made that the 
DRIS contract is on schedule. It is on schedule after they 
revised the schedule, so that is not on schedule, and there are 
still some requirements issues there. So requirements concerns 
me. Managing the many interfaces, that would concern me. There 
are a lot of interfaces where these things are going to be 
interacting together, the various systems, and then testing. 
There is a lot of testing that is going to need to occur 
between now and the Decennial.
    We were betting that a lot of the testing was going to 
occur with the dress rehearsal. Now that we have deferred 
functionality and got in trouble, we are pushing all that, so 
that makes testing even more important post-dress rehearsal.
    So, again, requirements, interfaces, and testing are going 
to be three areas that we are going to need to watch closely.
    Mr. Sarbanes. OK. Thank you, Mr. Chairman.
    Mr. Clay. Thank you so much.
    Ms. Janey, just a final round of questioning, just for 
clarification. Has the final version of the hand-held been 
tested with MAF/TIGER? Mr. Murray, you may testify.
    Mr. Murray. Good afternoon. Right now the final version of 
the hand-held with the MAF/TIGER data base has not yet been 
tested. It has not been tested with the final version because, 
as Mr. Waite mentioned earlier, there are still a few counties 
that are still outstanding to be delivered for MAF/TIGER, but 
that program is currently ahead of schedule on delivering the 
counties. There are just a few remaining that we have to get. 
Once those are delivered, then we will go through in the middle 
of the summer, as I think it was Dr. Murdock mentioned earlier, 
and we will start the testing with the final software baseline.
    Mr. Clay. Mr. Waite and Dr. Murdock, do you agree with the 
Mr. Murray's testimony?
    Mr. Waite. Yes. We have three counties that have been 
delivered by Harris that haven't been quality checked, although 
we have been getting 99.9 percent approval. We don't expect a 
problem. When they get done, which should be in just a few 
weeks, at the most, maybe a few days, then we will have a final 
version of the TIGER data base.
    Harris has tested with the original version of the TIGER 
data base, so the main difference is that we are updating the 
street centerlines. We will be ready to test those with that 
input into the machine next month.
    Mr. Clay. Thank you for that.
    Mr. Murray and Ms. Janey, according to the Bureau, many of 
the requirements that Harris received on January 16, 2008, were 
modifications to existing requirements. According to their 
record, 286 of the 418 requirements were clarifications of 
existing requirements. Harris doesn't see it that way. In your 
opinion, they are new requirements. How many of the 
requirements were actually new requirements according to 
Harris' record, and how many were modifications to or 
clarifications of requirements that were set before January 16, 
2008?
    Ms. Janey. In my testimony, Mr. Chairman, I said that we 
saw more than 400 new or altered modifications, so we were not 
presenting that all 400 were new. Our number may disagree some 
with the Bureau in terms of how many were clarifications, but, 
as I pointed out in my testimony, at this late stage of 
development any change requires a significant amount of re-
evaluation to ensure that it is going to work, basically.
    Mr. Clay. Of the 418 requirements, how many did Harris 
agree to complete and how many did you determine you would not 
be able to complete?
    Ms. Janey. I would ask for a clarification of your 
question. If your question was including an automated NRFU or 
assuming a paper-based NRFU.
    Mr. Clay. For the paper.
    Ms. Janey. For paper?
    Mr. Clay. Yes.
    Ms. Janey. In or about 246, there were only about 85 that 
we said were not able to be done, and there were some that are 
already implemented and some others that we are still in 
discussions with the Bureau as to how those will be disposed.
    There are some technical ways of handling some of the 
issues. There are other process ways that the Bureau could opt 
to handle some of the issues.
    Mr. Clay. And at this time how many of the requirements are 
not completed?
    Ms. Janey. Well, we haven't begun work on any of the 400 
since that was received. We have not been authorized by the 
Bureau to begin work on any of those.
    Mr. Clay. OK. But you still are under contract?
    Ms. Janey. Excuse me?
    Mr. Clay. You are still under contract, correct?
    Ms. Janey. Yes, sir.
    Mr. Clay. And you intend on performing? But you waited on 
the OK from the Bureau?
    Ms. Janey. We have to be authorized.
    Mr. Clay. OK.
    Mr. Murray. What the Bureau has authorized us to do on 
these requirements is to take them to the design phase. The 
first step in our design process is a system requirements 
review and a system design review, and the Bureau has 
authorized us to take it to that point in the design.
    And just one other point of clarification. These 416 or so 
requirements are not for paper NRFU. The paper NRFU 
requirements have not yet been defined.
    Mr. Clay. OK. Let me ask about the justification of the new 
cost estimates for the census, particularly the dramatic 
increase in the cost of the Harris contract.
    Mr. Murdock and Mr. Waite, my understanding is that the 
cost increases that are under the control of the Census Bureau 
have been carefully scrubbed and analyzed; is that accurate?
    Mr. Murdock. Certainly they have been scrubbed. They may be 
scrubbed some more before they are finalized.
    Mr. Clay. Well, my concern is whether the cost increases 
for Harris have been subject to the same scrutiny. The contract 
was originally going to cost about $600 million for over 
500,000 hand-held computers. Under the new contract, Harris 
will produce only 150,000 computers, less than half the number 
called for under the original contract, yet the amount will 
skyrocket to $1.3 billion. The result is that the taxpayer is 
now paying twice as much for fewer than half the number of 
computers.
    We are also being told that Harris will now be paid 
hundreds of millions of dollars just in overhead. This dramatic 
increase seems hard to justify or to understand. What kind of 
analysis did the Census Bureau conduct to verify Harris' budget 
numbers?
    Mr. Murdock. This is a rough order of magnitude and was 
represented as such by Harris. It has yet to be evaluated, 
validated, and negotiated, which is the process that goes 
forward after a rough order of magnitude is done.
    Mr. Clay. OK. Under the new budget the Census Bureau is 
going to be running the non-response followup and not Harris, 
yet I understand that Harris is now going to be paid an extra 
$80 million for supporting this effort. Harris is doing less 
but being paid more. How does this make any sense?
    Mr. Murdock. Well, I think it is important to understand 
that one of the major activities that they are performing in 
this whole process is the operational control system. In fact, 
even though we go to paper, we are still dependent on the 
operational control system, which is, in a sense, the brains of 
the operation. It tells us how we are doing in terms of field 
operations, how many additional places there are to go, what 
the productivity is of different groups, etc. That process is 
still being developed by our contractor.
    Now, again, we have not, as I said, done the total 
evaluation on this contract, and that process will go forward.
    Mr. Clay. An operational control system was not part of the 
original $600 million contract?
    Mr. Murdock. There was an operational control system, but 
it was of a different nature. It was for an automated process, 
not for a paper-based process.
    Mr. Clay. My understanding is that the Commerce Department, 
not the Census Bureau, took the lead in scrutinizing the new 
Harris contract terms; is that correct?
    Mr. Murdock. In terms of that process, the evaluation and 
so forth has not begun in terms of that process.
    Mr. Clay. OK. So you will work in conjunction with the 
Commerce Department?
    Mr. Murdock. We will work in conjunction to do that, yes.
    Mr. Clay. OK. Thank you.
    I recognize the gentleman from California.
    Mr. Issa. Mr. Chairman, I will continue in the same line 
that you have been going.
    You know, up until now we have been talking history. I 
think now we are trying to talk the go-forward on a couple of 
these areas.
    Let me understand, 418 changes, modifications, or 
clarifications that have occurred. If I understand the normal 
procedure properly that you are going to follow, Ms. Janey, you 
receive these. You interpret them. You produce your 
interpretation of what it is going to take to comply with them. 
You then come back, and that is what you have been authorized 
to do. You then come back and say this is what we believe you 
asked for, this is what we agree to do, and this is what it 
will cost. Is that roughly the next step?
    Ms. Janey. Yes.
    Mr. Issa. OK. And at that juncture, if you have 
misunderstood or over-complied, then the Bureau will have the 
ability to say that is not what we meant, we don't want you to 
do this, you can do less, there is a simpler way; is that 
correct?
    Ms. Janey. Yes.
    Mr. Issa. So we are in a position where it is, to a great 
extent, not in your hands, but in your hands as the Census 
Bureau to determine how many of these 418 and what they really 
mean. That is more or less correct. I am seeing nodding, so 
nobody disagrees here.
    So it is a little premature to know what it is going to 
cost, but the two things we know are some of these 418 will 
represent material, additional taskings for which there will be 
additional costs in addition to your cost of preparing it, 
correct?
    Ms. Janey. That's correct.
    Mr. Issa. And if I understand you correctly, when the 
decision was made to go from automated to paper, the overhead 
of your control system, which is the part that the chairman was 
speaking of, by definition is more expensive, more difficult. 
Is that also true? I know what it is like to look at an 
electronic data system that is transferring back and forth with 
WalMart from my old company, and I know what it was like to go 
back and forth with invoices. There is no question in my mind 
which one costs more.
    Am I getting that right, that is one of the reasons that I 
believe $80 million, to a certain extent we are going with a 
more expensive system or less efficient system than anticipated 
because of paper; is that right?
    Ms. Janey. Largely, yes. I wouldn't characterize it as more 
difficult; I would classify it as different. And it should be 
pointed out again, sir----
    Mr. Issa. I always think of difficult as expensive, for 
some reason. The dollars are what I was focusing on. And it is 
more expensive. It is going to take more people, more time, and 
therefore cost more money.
    Ms. Janey. Yes.
    Mr. Issa. OK. From the GAO's standpoint, do you feel 
comfortable that you have the transparency necessary with both 
the vendor and the Bureau to ensure that this latest round of 
changes doesn't skyrocket and that we are not back here again 
looking at yet another increase.
    I knew I would have one last question that would not 
necessarily be sure, we can.
    Mr. Powner. Well, right now here is what we would look for. 
We would want to understand what the process is. I mean, 
clearly they are going to look at those requirements, the 
contractor, they are going to come up with costs, schedules, 
and then the question is: what does the Government do to 
validate that? That can be done different ways. Some Federal 
agencies and departments have internal capability to validate 
contractor schedules and estimates, some don't. And if you 
don't you can go out and get an independent assessment of that. 
Also, folks like MITRE can help with that assessment.
    I would suggest they get help to make sure that the 
schedule and the costs are realistic.
    Mr. Scire. If I could just add to that, we are also looking 
at the cost for the entire Decennial, and part of the estimate 
you are getting represent more than contract costs.
    Mr. Issa. I realize it is $5 per person per year if you 
break $50 into 10 years.
    Mr. Scire. Yes.
    Mr. Issa. If you break it into weeks, it is even cheaper.
    Mr. Scire. One of the largest cost elements here is the 
hiring of half a million temporary field workers, and so 
assumptions about productivity for those field workers, for 
example, can have a big affect on the ultimate life cycle 
costs. Same can be said for the address canvassing operation. 
While much smaller, if you need far more people and more 
devices to conduct that because of your finding that 
individuals are not working as many hours, or, in addition to 
that, while they are working they are not as effective, you are 
going to have higher costs.
    Mr. Issa. OK. And we have been called to a vote. I would 
only, not cynically, but seriously, suggest to the chairman 
that perhaps one staff member from each side of the dias here 
needs to be available for all of you to see if, in fact, the 
predictions made here today stay on schedule, because I know 
the chairman undoubtedly will call another hearing like this. I 
would hope between now and then that our staff on either side 
of the aisle not be blindsided by additional problems.
    I, as one, would invite any of you that see a problem to 
communicate with both the majority and minority so that, in 
fact, we are not here again astonished that things have been 
delayed or derailed.
    With that, Mr. Chairman, I thank you very much. This was a 
very worthwhile hearing.
    Mr. Clay. Thank you for suggesting it, too.
    Mr. Sarbanes, you are recognized for a second round, if you 
would like.
    Mr. Sarbanes. I do have one question for the GAO. You 
talked about not having a rehearsal. There is not another major 
rehearsal coming in terms of doing the testing, so what could 
happen? I mean, just paint a scenario for me. Could we end up 
with 500,000 temporary workers out in the field working on 
something that they are complaining about? I mean, is that a 
possible scenario? And, along those lines, if the technology is 
still being worked out while the census takers are being 
trained, potentially you could have a situation where you are 
going to have to change direction on them, which could create 
problems in the field.
    I am trying to get a sense practically of what could happen 
in the field as a result of not getting enough testing done 
ahead of time.
    Mr. Scire. Right. That's possible, and that is why it is so 
important to do everything. The Bureau needs to do everything 
in its power to test and understand and lay out specifically 
what its plans are for each of these operations.
    We have talked about end-to-end testing in terms of the 
software. There also needs to be testing of the linkages 
between operations and the systems that support them. That is 
why I think some of the milestones and benchmarks that we 
talked about earlier are so important. That's the only thing 
that is going to give you any assurances that the Bureau will 
be in a position, come 2010, that they don't experience what 
you are describing and have to make some fundamental changes in 
the operations while they are unfolding.
    Mr. Sarbanes. Thank you.
    Mr. Clay. Thank you, Mr. Sarbanes.
    I would hope that the next time the stakeholders of the 
2010 decennial census meet we can reassure the American public, 
we can reassure this panel that we have a clear-cut path to a 
successful decennial census without all of these issues being 
on the table, with a real plan that we go forward with it. You 
certainly will hear again from this committee, and hopefully we 
will come together knowing just where we are going from there.
    Let me thank all of the witnesses for their testimony 
today.
    That concludes the hearing.
    [Whereupon, at 4:20 p.m., the committees were adjourned.]

                                 <all>

</pre></body></html>
